<html>
<title> - BUILDING A 21ST-CENTURY INFRASTRUCTURE FOR AMERICA: HIGHWAYS AND TRANSIT STAKEHOLDERS' PERSPECTIVES</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


   BUILDING A 21ST-CENTURY INFRASTRUCTURE FOR AMERICA: HIGHWAYS AND 
                   TRANSIT STAKEHOLDERS' PERSPECTIVES

=======================================================================

                                (115-28)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                          HIGHWAYS AND TRANSIT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 11, 2017

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure
             
             
 
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]            


         Available online at: http://www.gpo.gov/fdsys/browse/                         
        committee.action?chamber=house&committee=transportation
        
        
                                __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
28-114 PDF                  WASHINGTON : 2017                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="a3c4d3cce3c0d6d0d7cbc6cfd38dc0ccce8d">[email&#160;protected]</a>         


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                  BILL SHUSTER, Pennsylvania, Chairman

DON YOUNG, Alaska                    PETER A. DeFAZIO, Oregon
JOHN J. DUNCAN, Jr., Tennessee,      ELEANOR HOLMES NORTON, District of 
  Vice Chair                         Columbia
FRANK A. LoBIONDO, New Jersey        JERROLD NADLER, New York
SAM GRAVES, Missouri                 EDDIE BERNICE JOHNSON, Texas
DUNCAN HUNTER, California            ELIJAH E. CUMMINGS, Maryland
ERIC A. ``RICK'' CRAWFORD, Arkansas  RICK LARSEN, Washington
LOU BARLETTA, Pennsylvania           MICHAEL E. CAPUANO, Massachusetts
BLAKE FARENTHOLD, Texas              GRACE F. NAPOLITANO, California
BOB GIBBS, Ohio                      DANIEL LIPINSKI, Illinois
DANIEL WEBSTER, Florida              STEVE COHEN, Tennessee
JEFF DENHAM, California              ALBIO SIRES, New Jersey
THOMAS MASSIE, Kentucky              JOHN GARAMENDI, California
MARK MEADOWS, North Carolina         HENRY C. ``HANK'' JOHNSON, Jr., 
SCOTT PERRY, Pennsylvania            Georgia
RODNEY DAVIS, Illinois               ANDRE CARSON, Indiana
MARK SANFORD, South Carolina         RICHARD M. NOLAN, Minnesota
ROB WOODALL, Georgia                 DINA TITUS, Nevada
TODD ROKITA, Indiana                 SEAN PATRICK MALONEY, New York
JOHN KATKO, New York                 ELIZABETH H. ESTY, Connecticut, 
BRIAN BABIN, Texas                   Vice Ranking Member
GARRET GRAVES, Louisiana             LOIS FRANKEL, Florida
BARBARA COMSTOCK, Virginia           CHERI BUSTOS, Illinois
DAVID ROUZER, North Carolina         JARED HUFFMAN, California
MIKE BOST, Illinois                  JULIA BROWNLEY, California
RANDY K. WEBER, Sr., Texas           FREDERICA S. WILSON, Florida
DOUG LaMALFA, California             DONALD M. PAYNE, Jr., New Jersey
BRUCE WESTERMAN, Arkansas            ALAN S. LOWENTHAL, California
LLOYD SMUCKER, Pennsylvania          BRENDA L. LAWRENCE, Michigan
PAUL MITCHELL, Michigan              MARK DeSAULNIER, California
JOHN J. FASO, New York
A. DREW FERGUSON IV, Georgia
BRIAN J. MAST, Florida
JASON LEWIS, Minnesota

                                  (ii)



                  Subcommittee on Highways and Transit

                     SAM GRAVES, Missouri, Chairman

DON YOUNG, Alaska                    ELEANOR HOLMES NORTON, District of 
JOHN J. DUNCAN, Jr., Tennessee       Columbia
FRANK A. LoBIONDO, New Jersey        JERROLD NADLER, New York
DUNCAN HUNTER, California            STEVE COHEN, Tennessee
ERIC A. ``RICK'' CRAWFORD, Arkansas  ALBIO SIRES, New Jersey
LOU BARLETTA, Pennsylvania           RICHARD M. NOLAN, Minnesota
BLAKE FARENTHOLD, Texas              DINA TITUS, Nevada
BOB GIBBS, Ohio                      SEAN PATRICK MALONEY, New York
JEFF DENHAM, California              ELIZABETH H. ESTY, Connecticut
THOMAS MASSIE, Kentucky              JARED HUFFMAN, California
MARK MEADOWS, North Carolina         JULIA BROWNLEY, California
SCOTT PERRY, Pennsylvania            ALAN S. LOWENTHAL, California
RODNEY DAVIS, Illinois               BRENDA L. LAWRENCE, Michigan
ROB WOODALL, Georgia                 MARK DeSAULNIER, California
JOHN KATKO, New York                 EDDIE BERNICE JOHNSON, Texas
BRIAN BABIN, Texas                   MICHAEL E. CAPUANO, Massachusetts
GARRET GRAVES, Louisiana             GRACE F. NAPOLITANO, California
BARBARA COMSTOCK, Virginia           DANIEL LIPINSKI, Illinois
DAVID ROUZER, North Carolina         HENRY C. ``HANK'' JOHNSON, Jr., 
MIKE BOST, Illinois                  Georgia
DOUG LaMALFA, California             LOIS FRANKEL, Florida
BRUCE WESTERMAN, Arkansas            CHERI BUSTOS, Illinois
LLOYD SMUCKER, Pennsylvania, Vice    FREDERICA S. WILSON, Florida
Chair                                PETER A. DeFAZIO, Oregon (Ex 
PAUL MITCHELL, Michigan              Officio)
JOHN J. FASO, New York
A. DREW FERGUSON IV, Georgia
BILL SHUSTER, Pennsylvania (Ex 
Officio)

                                 (iii)

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................   vii

                               WITNESSES

Patrick K. McKenna, Director, Missouri Department of 
  Transportation, on behalf of the American Association of State 
  Highway and Transportation Officials:

    Testimony....................................................     7
    Prepared statement...........................................    53
    Response to request for information from Hon. Rick Larsen, a 
      Representative in Congress from the State of Washington....    65
    Responses to post-hearing questions for the record submitted 
      by Hon. Bob Gibbs, a Representative in Congress from the 
      State of Ohio..............................................    66
James Roberts, President and CEO, Granite Construction, Inc., on 
  behalf of the Transportation Construction Coalition:

    Testimony....................................................     7
    Prepared statement...........................................    69
    Response to request for information from Hon. Rick Larsen, a 
      Representative in Congress from the State of Washington....    90
Brent Booker, Secretary-Treasurer, North America's Building 
  Trades Unions:

    Testimony....................................................     7
    Prepared statement...........................................    92
Ray McCarty, President and Chief Executive Officer, Associated 
  Industries of Missouri, on behalf of the National Association 
  of Manufacturers:

    Testimony....................................................     7
    Prepared statement...........................................    99
    Responses to post-hearing questions for the record submitted 
      by Hon. Bob Gibbs, a Representative in Congress from the 
      State of Ohio..............................................   107
Peter M. Rogoff, Chief Executive Officer, Sound Transit

    Testimony....................................................     7
    Prepared statement...........................................   108

                       SUBMISSIONS FOR THE RECORD

Hon. Grace F. Napolitano, a Representative in Congress from the 
  State of California, submission of the following:

    Letter of September 14, 2017, from Brad Diede, Executive 
      Director, American Council of Engineering Companies 
      California, et al., to Hon. Kevin McCarthy, a 
      Representative in Congress from the State of California....    38
    Letter of September 15, 2017, from the Transportation 
      Construction Coalition, to Hon. Kevin McCarthy, a 
      Representative in Congress from the State of California....    40

                        ADDITIONS TO THE RECORD

Prepared statement from the American Council of Engineering 
  Companies......................................................   117
Prepared statement from the American Public Transportation 
  Association....................................................   123
Prepared statement from Debra Lee Ricker, Chair, Board of 
  Directors, the American Traffic Safety Services Association....   128
Prepared statement from Brian P. McGuire, President and CEO, 
  Associated Equipment Distributors..............................   131
Prepared statement from the National Parks Conservation 
  Association....................................................   132
Prepared statement from the North American Concrete Alliance.....   134
Prepared statement from the Professional Engineers in California 
  Government.....................................................   136
Prepared statement from the Safety Spectrum Coalition............   139
Report of the Tri-State Development Summit Transportation Task 
  Force, ``Support Sufficient User Fees to Meet Federal 
  Transportation Investment''....................................   143
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


 
   BUILDING A 21ST-CENTURY INFRASTRUCTURE FOR AMERICA: HIGHWAYS AND 
                   TRANSIT STAKEHOLDERS' PERSPECTIVES

                              ----------                              


                      WEDNESDAY, OCTOBER 11, 2017

                  House of Representatives,
              Subcommittee on Highways and Transit,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:05 a.m. in 
room 2167, Rayburn House Office Building, Hon. Sam Graves of 
Missouri (Chairman of the subcommittee) presiding.
    Mr. Graves of Missouri. We will call the subcommittee to 
order. The first thing, I would like to ask unanimous consent 
that Members who are not on the subcommittee be permitted to 
sit with the subcommittee at today's hearing so they can ask 
questions.
    Without objection, that is so ordered.
    I would like to welcome everybody to the hearing today. It 
is going to focus, obviously, on how we can build a 21st-
century infrastructure. And the committee is holding a host of 
hearings to gather ideas on what Congress can do to achieve 
this goal. And today we are going to hear ideas from our 
highways and transit stakeholders.
    You know, gathering input from our stakeholders is 
essential to the process that we use to develop surface 
transportation policy. It was valuable in our efforts to pass 
the FAST Act [Fixing America's Surface Transportation Act], 
which was the first long-term highway bill in a decade, and we 
are going to continue to need your assistance with future 
legislation.
    Even with the additional resources we provided in FAST, the 
Nation's surface transportation system still needs additional 
investments. Enacting a long-term solution for the Highway 
Trust Fund is a critical component to ensuring that we can 
address those needs long into the future.
    Since passage of the FAST Act, building consensus on a 
solution to fund surface transportation programs has been a 
central priority of mine and it has always been the main 
priority of the committee. Providing Federal funding certainty 
for our non-Federal partners is vital to planning and building 
infrastructure for the 21st century. This is a bipartisan issue 
and I look forward to working constructively with my colleagues 
on both sides of the aisle, as well as our stakeholders, to 
ensure that we are going to achieve this goal.
    A modern infrastructure means a strong America, an America 
that competes globally, supports local and regional economic 
development, and creates jobs.
    And I want to thank all of our witnesses for being here 
today. I look forward, obviously, to the testimony.
    And with that I will turn to Ranking Member Norton for her 
opening statement.
    Ms. Norton. Thank you, Mr. Chairman. And I must say at the 
outset I very much appreciate that the subcommittee is holding 
this hearing to get input on rebuilding our highway systems. I 
think that is the right way to begin after this hiatus. And the 
four of us, in a very bipartisan way, led the Congress to pass 
the first surface transportation bill in a decade in 2015. 
Well, we realized then that we had not really begun, as 
important as that achievement was.
    It is not yet clear on where the Trump administration 
stands, or if it is really serious about real investments in 
infrastructure. I am pleased that they speak about 
infrastructure so often.
    But I think this committee is right to continue the due 
diligence that you have begun, Mr. Chairman, to highlight our 
investment needs and the critical need to actually fund them, 
stop talking about it, let's get some money on the table. 
Perhaps this hearing can help bring our committee and 
subcommittee and the administration together on what all agree 
s urgently needed infrastructure work.
    We already have a bipartisan majority on this committee 
about what needs to be done, because earlier this year 250 
Members of Congress with robust representation from both sides 
of the aisle joined Chairman Graves and I on a letter to the 
leadership of the Ways and Means Committee, urging a permanent 
solution--with an emphasis on permanent--to our Highway Trust 
Fund crisis.
    In this letter, we specifically urge, ``Any HTF solution,'' 
Highway Trust Fund solution, ``should entail a long-term, 
dedicated, user-based revenue stream that can support 
transportation infrastructure investments.'' This strongly 
bipartisan letter stands in stark contrast to the 
administration's apparent view that an infrastructure 
initiative is an opportunity to begin chipping away at the 
Federal Government's responsibility to be the steward of our 
national transportation network.
    Remember, ever since Eisenhower, we have recognized that 
this is a network. You can't dice and slice it; it goes from 
coast to coast, it goes from rural to urban. That is why the 
responsibility is Federal. Based on what we have seen so far 
from the administration, we may get a White House proposal that 
contains various incentives designed to boost local, State, and 
Tribal dollars. Try telling that to the States and localities. 
Rural areas object to this, and Members and Senators 
representing rural areas are predictably strong proponents of 
keeping the funding streams as they are.
    So the administration seems to hint that some funding would 
go to rural areas and, for the great bulk of other areas, there 
would be limited Federal dollars. But there has been an 
agreement for my entire lifetime--Republican and Democratic 
administrations alike--that there should be Federal grants that 
fund the entire network. And I am certainly happy to work with 
rural areas--they feed right into the urban area I represent--
to ensure that they are treated fairly. When one part of the 
system is not treated fairly, we all have to jump in.
    I cannot support an infrastructure bill, of course, that is 
biased against urban areas. And I suspect that there would be a 
huge number of Members with me on that. I doubt that such a 
bill could gather a majority from either party.
    So, as an example of what a region looks like, I represent 
the District of Columbia, which is, of course, a densely 
populated city in a densely populated region. Well, you see all 
kinds of construction trades, building more offices, 
apartments, condos, amenities, and collaboration with the rest 
of the region. Maryland suburbs, Virginia suburbs, the Federal 
Government provides a transportation network for over 6 million 
people.
    Now, within this microcosm of our country, congestion, 
transportation problems, deteriorating bridges are challenges 
that we face no matter where we live. No part of the region is 
immune. So I may represent the District, but I believe I 
represent the entire region and, for that matter, the country 
when I speak of this region.
    These same challenges, the challenges I have described in 
this region, are replicated in all our major urban areas across 
the Nation. Maybe we should stop calling them urban areas, 
because the rural part of our region feeds straight into these 
roads and bridges, because that is where they come for the 
jobs, because that is where the jobs are.
    So, parity in a transportation bill is essential. The top 
20 urban areas contribute 52 percent of the total GDP of our 
economy. American population is expected to grow by 70 million 
by 2045. And by 2050, three-quarters of Americans are expected 
to live in 11 megaregions. We can no more leave behind urban 
areas than we can leave behind rural areas. It is pretty hard 
to disassociate one from the other.
    Our urban areas, of course, are the economic engine of the 
Nation. That is why the rural areas need them. If we leave 
urban areas to fend for themselves largely, then we are 
ignoring our constitutional mandate to assure the free flow of 
commerce. Allowing bottlenecks to build up and traffic to grind 
to a halt in major population and commercial centers is 
backwards and would hurt urban and rural areas alike.
    Some of our witnesses today support the repeal of the 
Federal ban on tolling interstates. Originally enacted to 
protect drivers from double taxation, a Rasmussen survey found 
that just 22 percent of Americans favor polling tolls on 
interstate highways for infrastructure maintenance. Three times 
as many, or 65 percent, are opposed to turning the Nation's 
interstate into tolling roads.
    We should think seriously about the impact on drivers if 
the Federal Government incentivizes Federal lanes tolled that 
allow drivers to avoid the congested general purpose lanes. 
Such schemes, sometimes referred to as Lexus lanes, allow those 
with disposable income to avoid congestion, yet leave the great 
majority of drivers stuck in traffic.
    Just a few miles from here in Virginia are the 495 express 
lanes. Perhaps some Members use them. These lanes use 
congestion pricing with no price cap to ensure traffic flow 
remains at least 55 miles per hour in express lanes. No traffic 
reduction requirement exists for the general purpose lanes that 
most people use, meaning any congestion benefits reside with 
those who can afford to pay more.
    In the same vein, the 495 express public-private 
partnership contract discourages carpooling, of all things, 
that directly relieves congestion. While HOVs [high-occupancy 
vehicles] are exempt from tolls, if HOVs exceed 24 percent of 
total vehicles, the Virginia Department of Transportation would 
have to subsidize the lost toll proceeds. This means that the 
Virginia Department of Transportation is incentivized to 
discourage carpooling, which is a major instrument for 
relieving congestion.
    Finally, this is a particularly bipartisan committee, as 
our recent transportation and infrastructure legislation shows. 
However, any adverse treatment to transit investment in an 
infrastructure package would surely break up this partnership.
    Perhaps we all remember when there was a bill that failed 
to get to the floor some years ago because it virtually zeroed 
out transit. Transit is critical to moving workers efficiently 
and minimizing congestion in urban areas. We need more, not 
less, of it. Yet the administration in fiscal year 2018, in its 
budget, continues the false and shortsighted myth that cutting 
transit funding will somehow solve our transportation funding 
woes. Their opposition to transit is a recipe for congestion.
    Mr. Chairman, I look forward to hearing from today's 
witnesses, and I thank you for calling this hearing today.
    Mr. Graves of Missouri. Thank you, Ms. Norton. I now turn 
to Representative Shuster, chairman of the full committee, for 
his comments.
    Mr. Shuster. Thank you, Mr. Graves. And thanks to all the 
witnesses for being here. I am looking forward to hearing from 
all of you. None of you, I think, are strangers to the 
committee. From Mr. McKenna, who is actually out there doing it 
day in and day out in Missouri, and Mr. Roberts, and Mr. 
Booker, your folks are building the infrastructure of this 
country. Mr. McCarty, your folks are using it every day. And, 
of course, Mr. Rogoff, your great and distinguished career down 
at DOT--it is a really fabulous panel to have before us. We 
look forward to hearing what you have to say.
    To me, building a 21st-century infrastructure is about 
jobs. It is about efficiency, moving products, moving people as 
efficiently, as low-cost as we can, ensuring that America is 
competitive, and making sure we pay for it. Stop kicking the 
can down the road so that my children or grandchildren or 
great-grandchildren are going to be stuck with a bill for a 
road that has been built in the next couple of years.
    I certainly believe that President Trump is a builder. I 
think this is certainly an area that he understands. He knows 
how to build things, he knows how to finance things. And we 
have been working closely with the administration, trying to 
figure out the outline, the principles, and we hope to see that 
soon coming out of the White House.
    But again, hearing from the stakeholders on your policy and 
funding priorities is absolutely key to all of this.
    One thing, as I said, I think we all can agree on is we 
need to fix the Highway Trust Fund, making sure that there are 
solutions on the table. Fixing the trust fund will help our 
non-Federal partners--and if you look across the country, 29 
States have dealt with it over the last 4 or 5 years, and I 
don't believe any State legislature has been wiped out, either 
party, for dealing with the funding stream. I know my State of 
Pennsylvania itself, with a Republican Governor, Republican 
house and senate, dealt with their funding issue.
    And one of the things I think in--just following up with a 
little bit of--Ms. Norton was saying about, you know, urban, 
suburban, rural--the gas tax is a regressive tax, and rural 
American does pay more. But in the Pennsylvania experience--and 
I think this is true all over the country, I am certain it is 
true all over the country--although rural folks may pay more in 
their gas tax, they get back a lot more. You can't build a 
roadway in rural America, you can't build a road in my district 
that isn't subsidized to the tune of 50 to maybe 80 percent.
    So my folks are going to pay more when they fill up, 
because they use their cars more. But what they get back from 
the taxpayers, or the folks--the users in Philadelphia and 
Pittsburgh, I think it comes back to them, and it is a 
balanced--balance what they get back. So that is something we 
have to keep in our minds as we go forward, because that will 
be the cry. It is regressive.
    But rural America, those folks that have to travel more to 
get to work, they benefit greatly, I believe. And my district 
is an example of that. And I think if you go to any rural 
district in America, you will see you can't build an interstate 
highway through rural Pennsylvania or rural Wyoming unless the 
folks from the urban areas, their dollars are coming out there 
to make this country connected.
    So again, I look forward to hearing from you folks today, 
and I appreciate you spending your time and your experience 
with us here.
    I yield back.
    Mr. Graves of Missouri. Thank you, and we will now turn to 
Peter DeFazio, who is the ranking member of the full committee.
    Mr. DeFazio. Thank you, Mr. Chairman. Thanks for holding 
this hearing, and thanks to the witnesses who traveled here 
today.
    I didn't bring my poster, but, you know, the poster of 1956 
Life Magazine, where the brandnew interstate in Kansas ends at 
the Oklahoma border in a farmer's field because Oklahoma 
defaulted on their promise to build their section, until we had 
a national highway program, and they got 80 percent of it paid 
for by the Feds.
    We are talking about linking America together, a vision 
that Dwight David Eisenhower had 70 years ago, with a national 
transportation policy. Transportation does not end at State 
lines. So we need the Federal investment, as the chairman 
said--in fact, it is 24 States, not just 21--24 States have 
stepped up, and they have increased revenues, principally with 
a gas tax. A couple of areas went with wholesale taxes, RAC 
taxes, but they are stepping up. They need a Federal partner. 
It is not enough that they did that.
    And yes, no one lost their election, no one was recalled. 
So why are we sitting here, jawing again today, 9 months, 10 
months into the year after the first hearing on our 
infrastructure needs with no proposals, other than a few 
introduced by people like myself on a bipartisan basis? Two of 
my bills for infrastructure have Freedom Caucus sponsors and 
the other has Lou Barletta on it. We can do this in a 
bipartisan way, but all we are doing is talking. That is all we 
are doing around here, is just talking while the country 
crumbles.
    I mean, seriously, let's get to work. Actually, the 
Republicans took a very substantive step last week on 
transportation and infrastructure. They cut it $25 billion in 
their budget. So why are we even here, pretending? I mean if 
that is their priority, and they are going to cut it $25 
billion, why are they holding a hearing to talk about our 
needs? You can't meet our needs without investment.
    We haven't raised the Federal gas tax since 1993, when a 
guy named Bud Shuster brought a bunch of Republicans to vote 
with the Democrats and we raised the gas tax. Twenty-four 
States in just the last couple of years have recognized the 
need and done it. And there has been no action here. We are 
promised $1 trillion downtown by the White House, and then they 
come out with an outline of $200 billion, maybe, sort of, and 
you know, that might just be PPPs [public-private 
partnerships]. But then the President says he doesn't like 
PPPs.
    It is time for someone to take the lead, and this committee 
should take the lead. It is time to put proposals out and push 
the House to act.
    Thank you, Mr. Chairman.
    Mr. Graves of Missouri. I would like to welcome our panel. 
And first we've got Mr. Patrick McKenna, who is the director of 
the Missouri Department of Transportation. He is here on behalf 
of the American Association of State Highway and Transportation 
Officials.
    We have also got Mr. James Roberts, who is president and 
chief executive officer at Granite Construction, and he is here 
on behalf of the Transportation and Construction Coalition.
    Mr. Brent Booker, who is secretary-treasurer of North 
America's Building Trades Unions.
    Mr. Ray McCarty, who is the president and chief executive 
officer of the Associated Industries of Missouri, and he is 
here on behalf of the National Association of Manufacturers.
    And Mr. Peter Rogoff, who is the chief executive officer of 
Sound Transit.
    And with that, I would ask unanimous consent that our 
witnesses' full statements be included in the record.
    And without objection, that is so ordered.
    And since your written testimony is going to be included in 
its entirety in the record, the committee would request that 
you limit your summary to 5 minutes.
    And, with that, I will start with Mr. McKenna.

TESTIMONY OF PATRICK K. MCKENNA, DIRECTOR, MISSOURI DEPARTMENT 
  OF TRANSPORTATION, ON BEHALF OF THE AMERICAN ASSOCIATION OF 
  STATE HIGHWAY AND TRANSPORTATION OFFICIALS; JAMES ROBERTS, 
PRESIDENT AND CEO, GRANITE CONSTRUCTION, INC., ON BEHALF OF THE 
TRANSPORTATION CONSTRUCTION COALITION; BRENT BOOKER, SECRETARY-
TREASURER, NORTH AMERICA'S BUILDING TRADES UNIONS; RAY MCCARTY, 
PRESIDENT AND CHIEF EXECUTIVE OFFICER, ASSOCIATED INDUSTRIES OF 
      MISSOURI, ON BEHALF OF THE NATIONAL ASSOCIATION OF 
 MANUFACTURERS; AND PETER M. ROGOFF, CHIEF EXECUTIVE OFFICER, 
                         SOUND TRANSIT

    Mr. McKenna. Chairman Graves, Ranking Member Norton, and 
members of the subcommittee, thank you for the opportunity to 
provide the perspective of the Nation's State departments of 
transportation. My name is Patrick McKenna, and I serve as 
director of the Missouri Department of Transportation.
    Today it is my honor to testify on behalf of the great 
State of Missouri and AASHTO, which represents the 
transportation departments of all 50 States, Washington, DC, 
and Puerto Rico.
    As Members of Congress and the President consider building 
a transportation infrastructure package, please consider the 
following.
    The future of the Federal Highway Trust Fund must be 
secured through long-term, sustainable revenue solutions. 
Direct Federal funding is needed, instead of relying solely on 
incentives that encourage the use of private capital or 
borrowing.
    Wherever possible, traditional Federal authorities should 
be assigned to States to expedite and streamline project 
delivery.
    Priority should be given to transportation investments that 
secure our Nation's future for the long term, instead of 
shovel-ready projects.
    And the existing Federal program structure, including 
highways, transit, and rail, should be utilized. This would 
enable investments to flow to every region of the country.
    The FAST Act was the first long-term funding legislation 
since 2005. This allowed for funding certainty and planning. It 
also increased the amount of Federal funds available that can 
be matched with State dollars. Prior to the FAST Act there was 
Federal funding instability, and Missouri was in the difficult 
position of considering abandoning maintenance on 26,000 out of 
34,000 miles of roadways. Since the passage of the FAST Act, 
Missouri has taken on more financial risk as a State, and 
increased our capital budget by $3 billion over 5 years.
    I want to thank Chairman Graves and members of this 
committee for your work to pass the FAST Act and to appeal for 
your continued action to create funding stability.
    The United States Department of Transportation notes in 
2015 that State and local governments provided 80 percent of 
funds invested in highway and bridge programs, and 74 percent 
of funds invested in transit programs. I cite these numbers 
because AASHTO and its members disagree with any notion that 
Federal transportation funding displaces or discourages State 
and local investment.
    As my example of FAST Act funding stability shows, Missouri 
increased its budget alongside and as a result of Federal 
investment. The Highway Trust Fund has provided stable, 
reliable, and substantial highway and transit funding for 
decades, but this is no longer the case. According to the 
Congressional Budget Office, annual Highway Trust Fund spending 
is estimated to exceed receipts by about $16 billion by 2021. 
Without your action, Missouri will be right back in the 
position we were prior to the FAST Act.
    Missouri could see a 40-percent reduction in funds, $400 
million less for the State. Critical maintenance and 
improvements will stop. AASHTO believes that an infrastructure 
package must focus on direct grant funding, rather than Federal 
financing support. The State DOTs continue to support a role 
for financing and procurement tools such as public-private 
partnerships.
    We also maintain that financing instruments such as 
subsidized loans, tax-exempt municipal and private activity 
bonds, and infrastructure banks are insufficient to meet most 
types of transportation investment needs.
    Any new infrastructure plan should focus on the needs of 
rural America. Rural areas remain critical to the Nation's 
economic success through the production and movement of goods 
such as agriculture and manufacturing products.
    AASHTO believes that we can improve program delivery by 
assigning some authorities traditionally assumed by the Federal 
Government to States that wish to participate, including 
Federal funds obligation management, project agreements, and 
right-of-way acquisition, just to name a few. We ask Congress 
to consider establishing a project delivery pilot program. This 
program would develop innovative practices to streamline 
delivery and achieve a positive environmental outcome.
    Missouri has more than 1,000 miles of the Mississippi and 
Missouri Rivers; $12.5 billion in cargo travels up and down 
those waterways each year.
    We have seen firsthand how investments can pay long-term 
dividends. In the past 5 years, $13 million in State investment 
in ports has led to $53 million in investment from the private 
sector. Missouri's cost-share program enables us to leverage 
contributions from local communities with State and Federal 
funds to advance construction priorities. Since inception, $450 
million in State participation has led to the delivery of more 
than $1 billion of construction projects.
    We urge Congress to build on the partnership that has 
flourished between the Federal Government and State DOTs. The 
flexibility to let State and local governments select projects 
based on public input allows local partners to work together to 
meet the unique needs of both urban and rural areas.
    Please take the necessary steps to ensure that all modes of 
transportation--rail, airports, transit, and ports--have access 
to additional Federal resources that will keep our citizens 
connected and provide economic growth.
    I want to thank you again for the opportunity to testify 
today, and I am happy to answer any questions.
    Mr. Graves of Missouri. Thanks, Mr. McKenna.
    Mr. Roberts.
    Mr. Roberts. Chairman Graves, Ranking Member Norton, thank 
you for convening today's hearing. My name is Jim Roberts, and 
I am the president and chief executive officer of Granite 
Construction, Incorporated. We are a full-service 
infrastructure solutions provider performing as a general 
contractor, construction management firm, and construction 
materials producer. Headquartered in Watsonville, California, 
Granite teams are proud to have built American infrastructure 
across our great country since 1922.
    Across America our work improves public safety, and it 
improves the efficiency of the gears of commerce. Whether 
representing a routine maintenance of Alaska or Arizona or 
California roadways, or represented by airport runway 
expansions, or even in the form of infrastructure projects of 
regional and national significance such as the Tappan Zee 
Bridge replacement in New York, we are part of the communities 
in which we build.
    I am pleased to appear today on behalf of the 
Transportation Construction Coalition, or TCC. The TCC is a 
partnership of 31 national associations and construction 
unions. The full TCC roster is included in my written 
testimony.
    Some 60 years after the visionary investment in our 
Interstate Highway System that still supports our economy 
today, the country once again is ready to rally behind a bold 
Federal infrastructure vision backed by a significant 
commitment to fund this vision. Taking the cue after decades of 
chronic Federal inaction, more than half of the States in our 
country have increased funding commitments to their 
transportation programs in the past few years. Now is the 
perfect time for leadership to reemerge at the Federal level.
    Mr. Chairman, let's begin with the Highway Trust Fund, 
which has a well-known permanent revenue shortfall that impedes 
the ability of State and local governments to plan, fund, and 
construct transportation projects. While the FAST Act was 
passed in 2015 and enacted last year, it is still not fully 
funded. If States follow past practices, as expected, then some 
will start scaling back planned projects as early as 2019, due 
to Federal funding uncertainty.
    The FAST Act reformed the highway and public transportation 
programs in a manner that emphasized meeting national goals 
while providing States additional flexibility. The policy 
improvement was significant, but the funding commitment has 
paled in comparison.
    We encourage Congress to allocate and leverage the 
investment of any new resources among existing programs in a 
way that emphasizes big-ticket outcomes such as improving our 
Nation's economic competitiveness. The longer we wait to 
invest, the further we fall behind both the developed and, 
sadly, also the developing world in the safety, quality, and 
efficiency of our transportation, power, and water 
infrastructure.
    We strongly agree with the 253 Members of the House of 
Representatives who have urged the Ways and Means Committee to 
include a Highway Trust Fund revenue fix in any tax reform 
legislation. Stabilizing the Highway Trust Fund in tax reform 
would provide a foundation and a platform for a broad-based, 
transformative infrastructure package.
    Increasing and indexing the Federal motor fuels tax, which 
has lost nearly 70 percent of its purchasing power since 1993, 
is the simplest and most efficient short-term fix. However, 
given the pace of both mobility and technological change, we 
believe that all potential funding options should be on the 
table to create long-term solutions that stabilize and 
reinvigorate Federal investments. Any Highway Trust Fund 
revenue construct must include permanently protected and 
dedicated revenue streams and resources sufficient to eliminate 
the shortfall and to support increased investment.
    While resources and structure are central components, so 
too is ensuring the timely delivery of projects. In my written 
testimony we suggested some practical reforms that begin with 
merging the National Environmental Policy Act and the Clean 
Water Act 404 permitting processes with the U.S. Army Corps of 
Engineers.
    We also believe a reasonable and measured approach to 
citizen suit reform is appropriate to mitigate today's all-too-
common misuse of environmental laws. These reforms would ensure 
the promise of incremental infrastructure investment would be 
realized in a timely manner, and not held up in redtape.
    Our society's decades-long underinvestment in 
infrastructure highlights and puts a human face on our very 
real need to improve America's infrastructure. Now is the time 
to act, as the work and the investment of previous generations 
is beginning to crumble right in front of our eyes.
    We look to you, our country's leaders, to guide and to 
promote the vision for critical overdue infrastructure 
investment in cities and in rural areas across America. Delayed 
maintenance and investment in transportation, water, and power 
systems continues to hamper the wellness of our country, and 
decrease our global competitiveness.
    It is time to address infrastructure issues that have been 
ignored for decades. As inaction exacerbates our current state 
of disrepair nationally, I urge you all to take action and to 
be strong leaders, just like your predecessors from over 60 
years ago, whose visionary actions we are still relying on 
today. Now is the time for our country's leadership to once 
again commit to real, long-term solutions.
    Mr. Chairman, thank you again for inviting the TCC to 
participate in today's discussion, and I look forward to your 
questions.
    Mr. Graves of Missouri. Thank you, Mr. Roberts.
    Mr. Booker.
    Mr. Booker. Good morning, Chairman Graves, Ranking Member 
Norton, and distinguished members of this subcommittee. My name 
is Brent Booker, secretary-treasurer of North America's 
Building Trades Unions. On behalf of the nearly 2 million 
skilled craft construction professionals that I am proud to 
represent across the United States, I would like to thank you 
for allowing me to testify before this subcommittee.
    Building America's infrastructure is literally what our 
members do every day. Whether it is roads and bridges, 
airports, waterways, power plants, and other energy 
infrastructure, municipal water systems, public buildings, or 
skyscrapers, our members apply their unique skill sets to 
building infrastructure in every corner of our great Nation.
    For many of our members, the strength of the construction 
industry and the strength of their job opportunities is 
directly tied to the strength of public policy and advancing 
the building of public infrastructure. As such, I would like to 
thank the leadership of this subcommittee in helping move the 
most recent highway bill, the FAST Act.
    Highway bills are the single largest job-creating piece of 
legislation affecting our members, and they provide certainty 
to our members that opportunities will be available for years 
to come. While the FAST Act made important strides in improving 
our Nation's surface transportation, I believe no one can argue 
that more can and must be done to further repair our Nation's 
infrastructure.
    North America's Building Trades Unions believes a big, 
broad, bold infrastructure plan is a necessary step our country 
must take in order to solidify economic opportunities for 
workers and businesses across the United States. The question 
before this subcommittee and the Congress, as a whole, is what 
should a plan include.
    For our members, a big infrastructure plan would reflect 
the overall investment level consistently reiterated by 
President Trump of $1 trillion. We believe such an investment 
will not only allow us as a Nation to meet many of our pressing 
infrastructure needs, but will lay the foundation for sustained 
economic growth in communities large and small.
    In spurring this economic growth, a plan of this magnitude 
should--and I say must--increase the standard of living for 
Americans across the Nation. In order to do so, the immense 
buying power of the Federal Government must not be used as 
leverage to depress wages in local communities, especially 
construction wages, which, adjusted for inflation, have 
actually been in decline since the late 1970s.
    Therefore, North America's Building Trades Unions' members 
remain insistent that such a plan include the prevailing wage 
standards enshrined in the Davis-Bacon and related acts that 
our members have fought for over the course of generations.
    For our members, a broad infrastructure plan will encompass 
not only surface transportation infrastructure, but all modes 
of infrastructure, such as schools, municipal water systems, 
aviation, rail, waterways, broadband, and our energy 
infrastructure through new, modern power generation facilities, 
grid upgrades, and investments in energy transportation and 
distribution.
    To address the wide variety of infrastructure needs 
effectively, we must address them efficiently. In order to do 
so, we believe it prudent to address our challenges through 
currently existing programs. Efficiencies should not breed 
duplicative programs designed to achieve the same goal. 
However, Federal programs should be created to meet 
infrastructure needs that do not have existing public 
mechanisms to deliver projects.
    For our members, a bold infrastructure plan is one that 
tackles the tough challenges and lays out a vision for a 
brighter future. I would argue, and I am sure most if not all 
of the members of the panel and the subcommittee would agree, 
that there is no greater challenge facing surface 
transportation than the long-term solvency of the Highway Trust 
Fund. We support a variety of measures to fix the trust fund, 
and are open to a variety of proposals to ensure its solvency. 
We believe Congress should not squander such an important 
opportunity to address this issue.
    A bold infrastructure plan should also continue to tackle 
the challenge of major projects that have regional and national 
economic impacts. One such project is the roughly $4 billion 
Tappan Zee Bridge replacement in New York that, to date, is 
responsible for roughly 7 million hours of work, installing 
nearly 220 million pounds of U.S. steel and 300,000 cubic yards 
of concrete.
    What those numbers do not tell you is that projects such as 
these--and, in fact, all public infrastructure projects--are 
critical to ensuring a consistent pipeline of skills training 
that North America's Building Trades Unions, in conjunction 
with our industry partners, provide through our privately 
funded registered apprenticeship programs.
    Spread out over our 1,600 formal joint labor management 
training centers across the country, as well as over 120 
apprenticeship readiness programs, our unions and our 
contractor partners invest roughly $1.2 billion of our own 
capital into training our current and future members. Industry 
and labor, as well as community partners like the National 
Urban League and YouthBuild, are working in partnership to meet 
the workforce challenges presented by a large investment in 
infrastructure.
    Former President Ronald Reagan once said--and I quote--
``The bridges and highways we fail to repair today will have to 
be rebuilt tomorrow at many times the cost.'' He went on to say 
that rebuilding our infrastructure is simple common sense, and 
that it represents an investment in tomorrow that we must make 
today.
    President Reagan was correct in his assessment over 30 
years ago. Unfortunately, his words are just as prominent 
today, due to continued inaction when it comes to substantive 
investment in our infrastructure. Continued inaction will only 
exacerbate our challenges and place unneeded negative pressures 
on the American economy.
    It is time once again for the infrastructure of the United 
States to be the envy of the world. The men and women of North 
America's Building Trades Unions are ready, willing, and able, 
and anxious to build it right and build it now, so that the 
rebuilding of America begins as soon and as best as possible. 
Thank you.
    Mr. Graves of Missouri. Thank you, Mr. Booker.
    Mr. McCarty.
    Mr. McCarty. Good morning, Chairman Graves, Ranking Member 
Norton, and members of the committee. Thank you for the 
opportunity to testify on such an important topic to 
Missourians and manufacturers across the Nation.
    My name is Ray McCarty. I am president and CEO of 
Associated Industries of Missouri. We are Missouri's oldest 
business association, and our mission is to promote a favorable 
business climate for manufacturing and industry in Missouri.
    AIM is also the home of the Missouri Transportation and 
Development Council, which had its roots as the Good Roads 
Federation, which was formed, interestingly enough, by a guy 
named Harry B. Hawes who went on to be elected to Congress and 
then to the U.S. Senate. And he--we did pass that. That was to 
get Missouri out of the mud and build the first hard roads in 
Missouri, a very bold proposition for the early 1920s. But it 
is interesting that he also sponsored the bill that formed the 
Missouri Department of Transportation.
    We believe the transportation system in Missouri and across 
the Nation demands continuing care and attention, because it is 
vital to the State's economic welfare and quality of life.
    AIM is also the official State partner of the NAM, or the 
National Association of Manufacturers, in Missouri. The NAM is 
the Nation's largest industrial trade association and the 
unified voice for more than 12 million men and women who make 
things in America. Manufacturers appreciate your focus on 
building a 21st-century infrastructure system because modern 
transportation and infrastructure systems are necessary to 
support modern manufacturing.
    We applaud your bipartisan work in 2015 to successfully 
reauthorize surface transportation programs for 5 years in the 
FAST Act. In October of 2016, the NAM released its 
infrastructure blueprint, ``Building to Win,'' and urged 
bipartisan action to revolutionize the infrastructure that 
makes the American Dream possible.
    For too long our Nation has relied on the transportation, 
water, and energy infrastructure that we inherited from 
previous generations, as other speakers have alluded to, 
weakening our economy, threatening our communities, and putting 
the safety of our families at risk.
    For example, in Missouri we rely on Interstate 70, the 
first highway to be built in the interstate system in 1956, 
along with several in other States. Interstate 70, along with 
Interstates 44 and 55, provide a critical conduit for raw 
materials and manufactured goods for manufacturers across the 
Nation because of Missouri's location in the heart of America.
    As Ranking Member Norton suggested, congestion is a big 
problem. Already, traffic is increasing the cost of moving 
freight on our Nation's highways by $63.4 billion per year. 
That is the equivalent--picture this--of 362,000 commercial 
truck drivers sitting idle for an entire work year.
    As modern manufacturing evolves and becomes even more 
productive, manufacturers rely on complex supply chains and 
just-in-time principles, where parts are ordered, made, and 
delivered, sometimes within hours. One large manufacturing 
company in Missouri recently lost an afternoon shift of 
production due to an accident on I-70 that closed that highway 
for just a couple of hours. The cost to that manufacturer was 
more than $1 million. Such delays can be devastating, 
especially for smaller manufacturers.
    Manufacturers also rely on transit to help get our 
employees to work. And if you think transit is limited to the 
urban areas, you must think again, because we have 
organizations like OATS in Missouri that provide vital services 
to rural Americans.
    There is no excuse for delay. Manufacturers believe the 
Nation must undertake an infrastructure effort that seeks to 
modernize our aging systems, and makes a long-term public 
commitment to infrastructure. Manufacturers believe Federal 
leadership and funding are needed to address bottlenecks in 
both rural and metropolitan areas that will improve the 
systemwide movement of freight throughout this country.
    Addressing the long-term solvency of the Highway Trust Fund 
should be a pillar of a 21st-century infrastructure proposal. 
The NAM urges Congress to shore up the fund with a reliable, 
user-based, long-term funding stream.
    In 2015, the average cost of congestion cost per truck 
vehicle mile traveled was $.23. That was up 25 percent of what 
it was in 2014. This is really a hidden tax, but it is not a 
tax that we can invest, it is just being wasted. It is being 
wasted on idle labor hours and unnecessary vehicle wear and 
tear, instead of being invested in the Highway Trust Fund to 
help build a 21st-century infrastructure system to improve 
America's economic competitiveness.
    Manufacturers need Federal policymakers to preserve and 
grow the funding and financing tools for States and localities. 
Tax-exempt municipal bonds should be protected as policymakers 
consider ways to expand the funding and financing toolbox with 
public-private partnerships and leveraging opportunities.
    Also, good governance improvements to better deliver 21st-
century infrastructure such as expedited environmental reviews 
are critical to the success of any effort.
    For decades, this committee has modeled bipartisan 
governance that puts solutions and progress before politics. 
That bipartisan leadership is needed now, more than ever, to 
deliver a pro-manufacturing infrastructure package that will 
include a vision for modern 21st-century infrastructure. This 
is the right opportunity to address neglected projects that 
make a systemwide difference, and improve manufacturers' supply 
chains, as well as develop long-term solutions to chronic 
funding issues in infrastructure programs such as the Highway 
Trust Fund.
    And I will be happy to answer questions.
    Mr. Graves of Missouri. Thank you, Mr. McCarty.
    Mr. Rogoff.
    Mr. Rogoff. Thank you, Chairman Graves, Ranking Member 
Norton, Chairman Shuster, and Ranking Member DeFazio. While I 
have appeared before this subcommittee in the past in other 
roles, I am particularly pleased to join you today to bring the 
perspective from one of the Nation's fastest growing regions.
    In his first address before Congress, President Trump 
declared--and I quote--``Crumbling infrastructure will be 
replaced with new roads, bridges, tunnels, airports, and 
railways gleaming across our very, very beautiful land.'' And 
we at Sound Transit, like rail transit agencies across the 
Nation, are prepared to deliver on the President's vision for 
gleaming railways.
    While we are encouraged by the President's goals for 
infrastructure, we have been deeply disappointed by budget 
proposals from his administration that appear to undermine 
those goals.
    At the same time, administration officials have made other 
statements regarding the infrastructure initiative that we can 
applaud and endorse, including the value of overmatching 
Federal funds, the value of an expanded TIFIA [Transportation 
Infrastructure Finance and Innovation Act] program, and the 
importance of training a skilled workforce.
    It is clear that this committee will be key to driving this 
effort. And, as such, I would offer the following 
recommendations.
    First, I would echo what the other witnesses have already 
said in arguing that funding in a new infrastructure initiative 
must not substitute for base-level funding authorized through 
the FAST Act and provided in annual appropriations acts. This 
is critical for rail transit agencies who must expand to meet 
population growth. Under the administration's budget request 
for 2018, the funding levels sought for major new transit 
expansions is effectively zero, ignoring the authorizations you 
put in the FAST Act.
    At Sound Transit we have been working with the FTA [U.S. 
Federal Transit Administration] for years to secure grant 
agreements for two extensions of our light rail spine, one 
running north from Seattle to the city of Lynnwood, the other 
running south to the city of Federal Way. We are joined by many 
similar projects around the country that seek to meet expanded 
demand with a strong, reliable Federal partner.
    Regrettably, the administration's proposal to terminate 
that partnership attempts to rekindle a decades-old ideological 
debate over the value of transit projects to our national 
mobility. Smartly, States and municipalities across the 
political spectrum have long since moved beyond that old 
ideological debate. We were all together heartened to see 
bipartisan and bicameral congressional support for rejecting 
the administration's proposed funding cuts for transit 
expansions for fiscal year 2017 and are hopeful for a similar 
outcome this year.
    Second, any new infrastructure plan must include transit 
expansion funding in major metro areas. The most recent census 
tells us that our population and economy will be increasingly 
urban. I won't repeat the data that Ms. Norton cited in terms 
of the 70 million more Americans that will be overwhelmingly 
located in urban areas, but in the Puget Sound region 
congestion has nearly doubled in just the last 5 years. And we 
are expecting 1 million more citizens by 2040. Without new 
mobility options, this growth threatens to choke off our own 
continued prosperity.
    Our major urban megaregions will increasingly serve as an 
economic engine. And I would use the example of Amazon's recent 
announcement that, while continuing to expand in Seattle, they 
are looking to open a second national headquarters. It is not 
an accident that Amazon is insisting that all cities bidding on 
their second headquarters provide detailed data on the 
availability of direct access to rail transit services. It is 
one of just four identified site requirements in their RFP. 
These are the infrastructure requirements for a 21st-century 
economy.
    Third, we do believe the administration may be on the right 
track in highlighting the importance of States and localities 
providing robust matching funds to access new Federal dollars 
above the base level of funding. The Federal share of Sound 
Transit's voter-approved capital plan is just 16 percent, and 
we have already taken two major light-rail expansion projects 
with zero FTA capital investment grant dollars. The taxpayers 
of Washington State have demonstrated remarkable levels of 
self-help to meet their surface transportation needs. The 
ballot measure that we passed just this past November called on 
the median voter to increase their own taxes by $169 a year to 
expand our mass transit network. The same legislation that let 
us go to the voters also increased the State's gas tax by 11.9 
cents, bringing us to the second-highest gas tax in the Nation.
    The point is we are doing a remarkable level of self-help 
to meet our surface transportation needs. Any Federal 
infrastructure policy should reward this level of local effort, 
not penalize it, as is proposed in the administration's 
proposed budget.
    Lastly, I would just say that we are very supportive of 
efforts to streamline the Federal environmental process. 
Transit projects are inherently environmentally beneficial, but 
these efforts must be done with great respect for the core 
environmental protections in Federal law.
    In the Pacific Northwest, the economic health of the region 
and our quality of life go hand in hand with the protection of 
our environment. Streamlining the environmental review process 
should not mean short-circuiting the process. Federal agencies 
will do us no favor if hastily produced environmental documents 
give project opponents an opening to delay our projects in the 
courts.
    And, in that regard, we need to remember that litigants in 
this space often don't care one whit for the environment. 
Instead, they try to use the environmental process to slow or 
kill a project because it is their last best chance of 
thwarting the will of the voters or reversing the plans of a 
State or a local government. This is not limited to transit 
projects or highway projects or water projects. It is the way 
the process works.
    So I would just summarize by encouraging this committee to 
take care as we do environmental streamlining. There is further 
progress that can be made. But please also look at the staffing 
levels at the agencies, the natural resources agencies and at 
DOT, to make sure there is staff on hand to produce quality 
environmental documents so our projects are not stopped in the 
courts. Thanks very much.
    Mr. Graves of Missouri. Thank you all. We are now going to 
recognize each Member for 5 minutes for questions, and I am 
going to start with Mr. Shuster, followed by Mr. DeFazio.
    Mr. Shuster. Thank you, Chairman Graves. As I said in my 
opening statement, I think one of the key components that we 
have to figure out is a long-term funding stream--I know my 
colleague, Mr. DeFazio, was very passionate about that, as am 
I. He has come up with a funding plan that seems reasonable to 
me. There is probably, I don't know, 10 or a dozen of them out 
there.
    And when you come up with a new plan, to try to educate 
Members of Congress on it, it is very, very difficult. I am 
trying to do that on a bill right now, an FAA bill, that--some 
Members that don't seem to understand what I am trying to do.
    But again, when you are moving forth a funding stream, 
long-term, sustainable, let's keep it simple. We have one in 
place now; we ought to be looking at that one very closely 
before we start going off on different new ideas, because it is 
very efficient. The math is pretty simple and straightforward. 
But I am open to everything. And that has to be a priority for 
me on how do we fund this so, as I said earlier, we don't kick 
the can down the road.
    But I think we also have to be thinking outside the box of 
ways to bring dollars in. Public-private partnerships are not a 
silver bullet. Let me say that again: public-private 
partnerships aren't a silver bullet. But it is a hell of a good 
tool to have in the toolbag, and there are some new ones out 
there that we ought to be looking at.
    And I am going to ask the question about asset recycling. 
And some of my colleagues on the other side say you want to 
sell all our assets. If you look at the Australian model, what 
they did, they hardly sold any assets; they leased them. 
Leasing is far different than selling. Leasing is you still 
retain the ownership of it, you allow somebody to come in, turn 
that asset into cash over time, and the idea is to have a bonus 
payment to do that.
    And again, the Australian model--we met with Ambassador 
Hockey, now the former--or the architect of this program in 
Australia. And the first question of a group of Republicans 
was, ``The Chinese are going to buy all our assets.''
    And the Australian said, ``No, they didn't. We wouldn't let 
them.'' Now, they are investors, but they don't control them, 
they are not on the boards. So again, it is money. And money is 
around the world that is out there.
    There's trillions of dollars they would love to invest in 
America's infrastructure projects. And they are not looking for 
an 8- and 10-percent return if you are doing a 30- or 40-year 
deal. They are good with 3 and 3\1/2\ percent, some of these 
pension funds, even our own. Even our own unions in this 
country are looking at that. I was talking to a building trades 
union the other day and they are investing their money in 
Canadian infrastructure. That is heresy, isn't it, building 
trades investing in a foreign country? Now they are doing it 
because it is making money for the folks that they are 
responsible for their pensions.
    So I think asset recycling is something we ought to 
consider. We ought to look at what the Australians have done 
with it. And to all accounts, they have generated over $20 
billion in just a very short period of time, on top of what 
they spend.
    So again, I would ask Mr. McKenna and Mr. Roberts and Mr. 
Booker to respond to that first, just your thoughts, if you are 
familiar with asset recycling, and what you think the prospects 
are.
    Mr. McKenna. Thank you, Mr. Chairman. Yes. In fact, the way 
we look at this to look at these things on a project-by-project 
basis. You have to look at the benefit to the taxpayers, the 
cost of capital, and do the analysis on a complicated project 
to determine if advancing the construction on that particular 
facility is not available through other means, what is the 
benefit to the taxpayers, in terms of reduction in congestion, 
enhanced facilities--asset recycling has been done at a number 
of airports. We are looking at it in Missouri at a couple of 
airports, as well.
    And then make sure that you are playing out those costs and 
benefits. Like you said, it is a tool in the toolbox, and I 
think that is appropriate for us to have all the tools we can. 
This is a large problem we have to solve all over the country, 
and we need all the tools we can to do so.
    Mr. Shuster. Mr. Roberts?
    Mr. Roberts. Just briefly, we have been involved in a few 
projects where we are actually handling the financing 
mechanisms of them.
    I would suggest that they not be considered just a short-
term issue. We need to look at the long term also. And I think 
that some of the times, when we monetize some assets from a 
short-term benefit, we also pay a bigger bill in the long term. 
So the--what I have seen, both in the private sector and the 
public sector, long-term DCF models, financial models are 
imperative, but knowing what you are getting rid of before you 
get rid of it I think is the imperative number here.
    But privatization and the 3P [public-private partnership] 
program is absolutely another tool in the tool chest for all of 
our individual DOTs and agencies in the country.
    Mr. Booker. And not to be repetitive--however, I would look 
at it, you know, and lump asset recycling along with PPPs. They 
are not all created equal. And, you know, there are some really 
good public-private partnerships out there that are doing 
really good things out there. There are some that aren't so 
good.
    And I think, when you look at the asset recycling program 
based on, you know, what the project is, what the long-term 
gain is--and, you are right, talking about our pension dollars, 
we invest our pension dollars in projects that make sense. Our 
first goal is to put our members to work. And you also have the 
fiducial responsibility of a trustee on a pension fund, to make 
sure you are getting returns that are comparative to the 
market. So when those things add up, and those things match up, 
we would be in support of them.
    But you would almost have to take a look at it case by case 
to see what the investment strategy is and what the standards 
are for the workers that are going to be doing that 
construction.
    Mr. Shuster. Well, I thank you, I appreciate that answer. 
And I agree, we've got to look at it case by case. But there 
are some things out there that could be absolutely home runs, 
and some we walk away from.
    I know I have gone over my time, Mr. Chairman, if you would 
indulge me for one more second.
    The only reason I didn't include Mr. Rogoff, because I knew 
I was going to run out of time. But if you could, in writing at 
some point, give us your views on it, or in 10 seconds, if you 
could just sort of give us a----
    Mr. Rogoff. You know, transit has the challenge of not 
having excess revenues to actually entice an investor. Colorado 
has done it through availability payments. We ourselves, being 
financially strong, are looking about whether it makes sense 
for us.
    I think the important point is really the one you made at 
the beginning. It should be a tool in the tool chest. It 
shouldn't have a leg up on everything else.
    Mr. Shuster. Right, absolutely.
    And just one final point, Mr. Chairman, if you will indulge 
me. The State of Connecticut--I don't know if there is any 
State bluer in the country than Connecticut. And I don't know 
if Ms. Esty knows this--she probably is aware of it--several 
years ago they had all the roadside plazas, travel plazas on 
the interstate were owned by the State of Connecticut.
    According to all reports, they were run down, service was 
terrible. They leased them to the Carlyle Group several years 
ago. The Carlyle Group came in, refurbished them all. They put 
competition so--you know, McDonald's versus Burger King bidding 
to get--Starbucks versus Dunkin' Donuts. And now, by all 
accounts, I am told they are gleaming, beautiful travel plazas 
with great service, and they are paying the State of 
Connecticut money back into the coffers, instead of it going 
the other way. So it can be done, has been done. That is 
probably a fairly small scale, but--and a State like 
Connecticut can do it, my goodness, Texas can do it and 
Pennsylvania, I hope will do it.
    But again, thank you all very much.
    Mr. Graves of Missouri. Mr. DeFazio.
    Mr. DeFazio. Thanks, Mr. Chairman. You know, we did have a 
special select committee of members here appointed by the 
chairman 4 years ago. We met for more than a year, heard from 
many people in a real hearing and interchange format about P3s 
[public-private partnerships]. And we put out a bipartisan 
consensus report.
    And the conclusion was that if you look at America's broad 
infrastructure needs, P3s with the best facilitation through 
law can deal with somewhere between 10 and 12 percent of our 
infrastructure needs. So that still leaves a hell of a lot on 
the table, 88 to 90 percent.
    So, yes, P3s, fine, well-regulated P3s, great. But that is 
not a solution, and it is not even the major tool in the 
toolbox, and it can't be.
    There is a really interesting new statistic, which is that 
the average toll rate per mile for a P3 toll road is $.30, and 
the average rate for a non-P3 toll road is $.14. That does 
raise some questions about what we are going to do to the 
American driving public and the trucking industry if we are 
going to go principally down the P3 route. So these things need 
to be discussed thoroughly.
    Also, what we found in doing that report was that almost 
every large P3 out there is substantially funded by the Federal 
Government. They all use TIFIA for 80 to 90 percent of their 
needs.
    So, yes, the private capital puts up 10, 15 percent, and 
then they turn to the Federal Government. So I think it points 
to the absolute essential need for us to have a robust, long-
term spending stream, and one that delivers things to the 
American public at the least cost. And direct Federal 
partnership with the States is the way to do that.
    And just to comment on the salesman down at the Australian 
Embassy who I met with, yes, they did it for 2 years. It was 
such a grand success they did it for 2 years. And most of the 
money went to two of their provinces, and one was New South 
Wales, who had been selling things off for years on their own, 
and then they got an extra bonus payment from the Federal 
Government to do yet another sale of assets that they had 
already been doing.
    So here, if we follow that model, we will take gas tax 
dollars which don't exist and are already in short supply, and 
we will go to local jurisdictions, who already have the 
authority, if they so wish, to sell off their ports or their 
airports, or whatever they want to do. That is up to the local 
jurisdiction. The Federal Government doesn't need to bribe them 
with dollars that we don't have to do that.
    It was a dumb idea in Australia. The new Government came 
in, they said, ``Hey, we are done with that. Put all the 
remaining money back into the national program,'' and directly 
distributes it back out across the country. So it didn't work 
there, it is not going to work here, and we just shouldn't go 
down that false path.
    So, Mr. McKenna, I agree with everything you said. Has your 
organization presented these ideas to this administration?
    Mr. McKenna. We have been participating with roundtable 
discussions that have occurred. We certainly support and AASHTO 
supports a robust discussion on the baseline funding. But we 
also understand that we have to have flexibility in the 
program, as well. And State DOTs are recognizing we have to 
look at procurement methods that are not just the simple 
procurement methods of the past, we have to open ourselves up 
in the case of particular projects that are very complicated 
and very difficult to structure, financially.
    We are looking at those possibilities. Design-build, 
design-build finance, those are good and they actually help us 
work even closer with our construction partners to bring 
innovative solutions to the engineering problems that we face.
    It is not a one-size-fits-all. DOTs have to open up to our 
own approach, as well, because that is part of the solution.
    Mr. DeFazio. All right, I totally agree with you on that. 
And the Federal Government should facilitate that, and not 
hobble them by prescriptive means attached to dollars. But you 
would still say that a robust additional Federal investment is 
still critical to most States?
    Mr. McKenna. Yes.
    Mr. DeFazio. All right. And one other quick question--there 
are 24 States that have already raised their gas tax, or raised 
funds in one way or another, and yet, the administration is 
talking about providing incentives to States that raise their 
revenues in the future.
    I think--and if you have ideas on this, some States have 
already gone up to the bar, taken the risk. I would say that if 
we are going to provide an incentive it should have a look-back 
provision. Would anyone disagree with that, because these 
States already did what was right, and then they could--if they 
want to do yet even more, they could get more incentive. But 
there should be some sort of a look-back, and not reward the 26 
States who haven't done a damn thing.
    Anybody disagree with that?
    Mr. Rogoff. I would just add one other option, Mr. DeFazio. 
There has been legislated in the past level-of-effort 
requirements. So that doesn't necessarily look back a set 
period of time, but sees what a State or municipality has done 
historically. But it does take a look at the self-sacrifice 
they have already made before they come to the Federal well, 
and that would certainly make sense.
    Mr. DeFazio. Could you provide some information on that, 
or--my staff probably can----
    Mr. Rogoff. There is a Byrd amendment in ISTEA [Intermodal 
Surface Transportation Efficiency Act]. I will have to go dig 
it out. But yes, sir.
    Mr. DeFazio. OK, great. Anyone else have a comment on that?
    Mr. Roberts. Well, I would just make a quick comment on 
your opening statement, as well. I want to thank you for your 
passion on the subject, and I can't agree with what you said in 
your opening statement any more so, that this is--and I think 
that Ms. Norton mentioned the same thing--this is a network 
system, this is a Federal issue.
    And, you know, there are a lot of tools in the tool chest, 
but the Federal issue and the Federal funding is the single 
most important portion of this. The alternative procurement 
methods can get more efficiencies in how we procure the work. 
We have got construction manager, general contractor 
associations today. We have got at-risk jobs, we have got 3Ps, 
we have got design-build finance. Those alternatives are great. 
But I think you hit the nail on the head relative to the 
primary force today is that we need additional funding from the 
Federal Government to get all those programs enacted.
    And I want to thank you for your passion.
    Mr. DeFazio. OK. Thank you, Mr. Roberts. Thank you, Mr. 
Chairman.
    Mr. Graves of Missouri. Thank you, Mr. DeFazio. I yield my 
time to Mr. Shuster.
    Mr. Shuster. Well, thank you, Chairman. I won't take it all 
up. Four points, very important points.
    One, Mr. Roberts and Mr. DeFazio, I agree with you. There--
for more Federal dollars. We got to figure this out. That is 
the number-one priority. But we got to look at other ways also, 
to try to beef that up.
    And three points on the Australian example.
    Number one, it was a 2-year program. So it did end in 2 
years because they wanted to force the issue to say if you want 
in this program, you got to get into it quick. And that is what 
it is. So it did end in 2 years.
    New South Wales opposed this program in parliament to the 
bitter end. And when it was passed, they were the first ones in 
line to get this first--based on a first-come-first-served 
basis. So if--now they tell me, if you go to New South Wales, 
they are boring four tunnels under the harbor, they got more 
highway cranes than any other country--any State in the world.
    So again, New South Wales opposed it, until it became the 
policy, and then they were there, front and center.
    And then finally, public entities like our airports in this 
country, our water systems, do not pay local State and Federal 
taxes. When a private company comes on board and starts to run 
it, they pay local State and Federal taxes. That is the way the 
funding mechanism was done in Australia. They based it on the 
revenue they would generate by this entity, taking it over, and 
what they would begin to pay in Federal taxes.
    So, once again, if we just shut the door on something like 
this without taking a good, hard look, I think that we are 
kidding ourselves. We have got to figure out a funding stream 
that is sustainable, that is long term, and then--but also look 
at these other tools in the toolbox. And if we can take this 3P 
tool from 10 to 12 percent and turn it into 15 to 18 percent, I 
think that is a pretty good day's work.
    Thanks a lot. That is my time.
    Mr. Graves of Missouri. Thank you, Mr. Chairman. My 
questions are going to center on rural America and the needs, 
and they are also going to concentrate on long-term solvency of 
the trust fund. But I will wait to the end of the hearing if 
they haven't been answered by then. And I will turn to Ms. 
Norton for her questions.
    Ms. Norton. Thank you, Mr. Chairman. You know, Chairman 
Shuster floated what could be called a new idea, relatively new 
idea. If you think about our transportation network, it has 
suffered from having relatively few new ideas. And all of this 
time that we have had this network, we have--until recently, 
when we didn't do very much until we were able to pass a long-
term bill in 2015, we have been running on the same grid.
    So I am interested in the answer to Chairman Shuster's 
question about exploring new ideas, because it is a very 
different country where--some things in a toolbox may work in 
some places, but not other places.
    But, Mr. Rogoff, you really made me think about this notion 
of overmatching, or self-help. You would think, particularly 
with my colleagues on the other side being in charge, we would 
want to incentivize that. Out of desperation, of course, we 
have seen with the gas tax, local governments just step up 
without the full Federal match.
    But you describe what some would call overmatching, because 
you have gone back to your taxpayers not only for the gas tax, 
but for your infrastructure, generally. And you are concerned 
that the administration, which says it wants to reward such 
States and regions, in fact cut your funding. In the District 
of Columbia, we wanted desperately to have a subway stop, which 
is now the New York Avenue subway stop, because it would help 
develop an entire area of the District of Columbia. It was 
funded by business taxes, by the District of Columbia, and by 
the Federal Government. It may be the only one of its kind in 
the country.
    But this notion of incentivizing, rather than de-
incentivizing, is of great interest to me, particularly given 
the dearth of new ideas.
    I wonder if you have given any thought to how to encourage 
more jurisdictions like Sound Transit to overmatch or to move 
ahead on infrastructure, while being assured that it wouldn't 
be punished by the Federal Government.
    Now, I am looking for an incentive, because apparently you 
have done it, perhaps because there was no other way to do it. 
I am looking for a positive way to encourage people who want to 
invest in their own local infrastructure or transit for their 
own local reasons to, in fact, receive some award or--let's 
call it encouragement--some incentive from the Federal 
Government.
    Mr. Rogoff, have you given any thought to that? Because it 
is you who put the thought in my head in the first place.
    Mr. Rogoff. Well, thank you, Ms. Norton. I have given it 
some thought. And it has been talked about in the past, when 
you talk about these major transit expansions we should first 
recognize that, unlike the classic 80/20 split of an 80-percent 
Federal investment to a 20-percent local investment, by law we 
are capped at 50 percent.
    For the projects that we are seeking assistance for from 
the FTA right now we are looking for 40 percent Federal funding 
to get to Lynnwood and just 25 percent funding to get to 
Federal Way. These are efforts we are making because we are 
determined to get there, and the region, congestion being what 
it is, needs it very badly----
    Ms. Norton. So, I mean, are you saying, for example, if you 
wanted to do something new, perhaps take less of a Federal 
match?
    Mr. Rogoff. Well, we are being backed into that approach, I 
think, in part by Federal budget policy. When I talk about 
being penalized for overmatching, there was a specific writeup 
that came out of OMB when the President's budget came forward 
that called out by name the Puget Sound area, Los Angeles, and 
Denver, and pointed out, as a rationale to eliminate the 
Federal partnership, the fact that we had gone to our voters 
and raised our own taxes for transit expansions.
    Ms. Norton. Now, this is what I mean, Mr. Chairman. You 
know, if you want to encourage what Sound Transit did 
elsewhere, then I am very interested in discussion with you--
how can we use that, rather than punish that at a time when it 
is so difficult to get funding?
    I did want to ask Mr. McKenna a question, because he 
represents the whole State of Missouri, and he spoke about the 
immediate crisis in rural areas. I couldn't agree more. If we 
are having trouble in what is a relatively wealthy area in this 
region, I can't image what--if we go into southern Virginia, 
for example--they must be going through.
    But you represent an entire State. And while you called 
attention to the immediate crisis in rural areas, I wonder what 
you would say about cities like St. Louis or Kansas City that 
have pressing needs at the same time.
    What I am trying to get to, Mr. McKenna, is what this 
committee has always avoided, and that is pitting one part of 
the region against another part, going back to the Eisenhower 
administration, the recognition that this was one vast network. 
So I am the first to acknowledge the immediate crisis; I don't 
see how rural areas are able to do anything.
    I wonder how you bring together, you who represent the 
entire State, big cities like St. Louis and Kansas City with 
places that can't possibly fund any of their transportation, or 
very few of their transportation needs, like your rural roads.
    Mr. Graves of Missouri. If the gentlelady would yield just 
a second, too, I would like to add to that. Just the insurance 
of those rural areas across the country, how do we insure that 
they aren't left out in this process?
    Ms. Norton. Yes.
    Mr. McKenna. Thank you for the question. In Missouri we 
allocate the limited resources that we have, based on objective 
criteria. It is similar to the allocation that is done by 
Congress with the surface transportation authorization, and 
that is why we think that is so important.
    When we look at our rural areas--for instance, we are just 
now undertaking a replacement of the Champ Clark Bridge, which 
connects parts of rural Missouri with Illinois, had we not had 
that underway, our rural communities would have a 77-mile 
detour if that bridge went down. It was built originally in 
1928.
    Likewise, we have structures in St. Louis and Kansas City 
that carry 120,000 cars a day. So it all comes down to dollars 
and cents in how you allocate those. An objective criteria for 
allocating resources is critical, so neither area feels they 
have been disadvantaged over the other. We use population, we 
use employment data, we use size of the infrastructure, vehicle 
miles traveled, and square footage of bridge deck to allocate 
capital resources among the regions, so that urban areas 
receive a larger share of the pie--but they should--and the 
rural areas receive their relative share.
    It is very difficult to move the needle on large projects 
like a major river crossing. The Champ Clark Bridge is a $60 
million enterprise for us. And we do have to build up resources 
over years to subsidize that rural area to be able to fund 
that, because your point is taken that this entire system is 
connected. And if we let any of those connections go down, we 
are disconnecting the communities themselves.
    So the allocation of resources, objectively, is an 
antidote. But recognizing that there is not enough money coming 
in to the top line to satisfy all the needs in any of the 
regions is critical.
    Ms. Norton. Chairman Shuster made a very important point. 
And it perhaps wasn't beneficial to where he represents. And he 
said rural areas pay more in gas tax. But then he pointed out 
what they get back in overfunding.
    And again, if we lose the notion, that you ultimately lose 
by not funding a transportation and infrastructure network, 
then we have lost the great American transportation lesson. I 
thank you very much, Mr. Chairman.
    Mr. Graves of Missouri. Mr. Gibbs?
    Mr. Gibbs. Thank you, Mr. Chairman. First question maybe go 
to Mr. McKenna or Mr. McCarty.
    We have made a lot of progress, I think, in the FAST Act, 
encouraging intermodal transportation through the National 
Highway Freight Program and other initiatives. How can we 
improve on that in an infrastructure package? Do you see that 
freight program working? And what kind of improvements?
    Go ahead, Mr. McCarty.
    Mr. McCarty. Thank you for the question. And we appreciate 
that.
    From the manufacturers' standpoint, we are not safety 
experts and we need someone to be able to tell us reliable 
safety scores. We have, right now, manufacturing members of the 
National Association of Manufacturers, who were ordered to 
trial by judge after they hired a twice-satisfactory-rated 
motor carrier because the judge was confused whether the data 
presented by the plaintiff or the two satisfactory safety 
ratings indicated that the motor carrier had been deemed safe 
to operate on the Nation's highways by the----
    Mr. Gibbs. I think you are answering my second question I 
was going to ask.
    Mr. McCarty. OK.
    Mr. Gibbs. My first question was about the freight program.
    Mr. McKenna. If I might, thank you for the question, 
Representative. We feel the freight program is actually 
focusing our efforts as a State, and it is doing so reasonably. 
We think that the provisions of both MAP-21 and the FAST Act 
that encouraged every State to put together a freight plan and 
to work with their local partners to do so as a baseline for 
further investment was important. We did so in Missouri in 2014 
and we are actually using the freight plan as the baseline for 
our primary cost benefit on our construction projects.
    We know that a secondary benefit will occur when we remove 
these freight bottlenecks to encourage commerce. There will be 
a passenger benefit, as well, and a safety benefit on top of 
that.
    So I think it is working, and I think that continuing to 
have that focus is important.
    Mr. Gibbs. Mr. McCarty, before I get to that, my second 
question I was going to ask you, my first one is you mentioned 
in your testimony about the importance of municipal bonds, tax-
exempt bonds, and I don't think that is in our framework right 
now. But do you want to elaborate on how--why is that so 
important?
    Mr. McCarty. Sure. As tax reform is being considered, we 
think it is very important that we preserve the ability to 
deduct the interest from those municipal bonds, because it 
preserves another funding measure that can be used to generate 
funds that we need to fix the roads.
    These municipal bonds, right now, if you take away the tax-
deductibility of them, that can make them less attractive. And 
so we would like to make sure that they are considered as you 
go forward. It is not something that is just a positive to the 
balance sheet; it is something that could act as an incentive 
to maintain that tax deductibility and generate more 
investment.
    Mr. Gibbs. And my question--I think you were starting the 
answer before--dealing with the--you mentioned in your 
testimony about one hiring standard for trucking companies.
    Mr. McCarty. Yes.
    Mr. Gibbs. And you know, in the FAST Act we mandated a 
review of the CSA, the Compliance, Safety, Accountability 
program. And then also do you have any comments on that, and 
the recommendations from the NAM?
    Mr. McCarty. Yes. As I started to say before, the CSA--you 
know, we think safety scores are important, but they are not 
something that manufacturers can come up with, and can be 
expected--we are manufacturers, we are not motor carriers. So 
we are--we do rely on the FMCSA to regulate motor carrier 
safety. Putting manufacturers in the middle of that leads to 
unhappy consequences for the manufacturers who can get caught 
in lawsuits.
    Currently there is no requirement for manufacturers to 
check any of those qualifications when they hire a motor 
carrier. So if we established a national hiring standard, or 
something that would provide some protection to those 
manufacturers as they hire their motor carriers, we think that 
would be something to consider.
    Mr. Gibbs. Yes, I just had problems with the way it was set 
up in 2010, the CSA, and it dings our truckers unfairly, and 
then it--you know, for the insurance rates. And then also, when 
their--when carriers like--customers, like the manufacturers, 
are looking at the truckers, or the trucking companies, they 
are unfairly treated. And that doesn't give a real snapshot of 
what is really going on. And they get penalized unfairly. And 
so, hopefully we can get that fixed.
    So I yield back, Mr. Chairman.
    Mr. Graves of Missouri. Ms. Esty.
    Ms. Esty. Thank you, Mr. Chairman. First I would like to 
note and thank some of my colleagues here, that we have 
launched a bipartisan Congressional Infrastructure Caucus, and 
that includes Mr. Graves and Mr. Duncan and Sean Patrick 
Maloney.
    So we will be working to get our colleagues from all 
different committees, not just this committee, because, as we 
have been discussing here today, the revenue aspects are 
incredibly important--that involves Ways and Means--and Energy 
and Commerce, as well, as we look at how technology is rapidly 
changing the needs and demands. I wanted to let you know that 
and urge any of my colleagues who are not yet members, sign up 
today.
    We are facing--OK, so Mr. DeFazio is starting the bidding, 
thank you.
    We are being out-competed by China and other countries that 
are robustly investing in their infrastructure, and we don't 
have 20 or 40 years to wait to get on with it.
    Mr. McCarty, you encapsulated the remarks of many of the 
manufacturers in my district who are looking at us and saying, 
``How can I possibly compete when I can't get my goods to 
market, I can't even get my workers here to the factory.'' That 
is the number-one complaint in my State of Connecticut, is 
actually transportation, more than taxes, more than anything 
else.
    And so, this problem has been brewing for decades. 
Everybody here has mentioned it. We need revenue. We need 
revenue--when you can do financing--and I think a lot of us are 
open to creative ways of financing--but we have a serious 
revenue problem.
    We have relied historically on user fees. The world is 
changing. Cars are more efficient. We didn't index the gas tax. 
We are having alternative fuels, many--a number of Members of 
Congress here drive vehicles that don't pay any gas tax, 
whatsoever. We need to look down the road. My kids never take 
cars. They use a car-sharing service. We are looking at 
autonomous vehicles.
    So I would like all of you to help with us, think about how 
are we going to look at those aspects. How are we going to be 
evaluating projects, based on future infrastructure needs, when 
we have such rapidly changing technology, rapidly changing 
usage patterns, increasing urbanization, which Mr. Rogoff 
talked about? We are going to be needing to do a lot more 
transit, if you look at the demographic patterns.
    So that is happening very fast, and we are going to need 
your help in thinking that through. So, that is one question.
    Another one is on the P3s. One of the concerns I have--and 
I think they need to be part of the mix. But that prioritizes 
making revenue, not necessarily what is in the public's 
interest in meeting those needs. So it meets certain kinds of 
projects. It may be very smart for something like high-speed 
rail in the Northeast, where you know that actual high-speed 
rail would have a revenue stream, and you need massive 
investment. Maybe that works. But for a lot of things it 
doesn't.
    I would love to hear your thoughts on life-cycle costs and 
fix-it-first. A lot of my concern, again, with creative 
financing mechanisms are they tend not to deal with actually 
fixing current infrastructure. It prioritizes something that 
can create a new revenue stream. And living in an older part of 
infrastructure in the Northeast, you know, we are concerned.
    And I do want to point out my State is one of those States 
that has continued to raise the gas tax. And yet some of the 
proposals on the table--and Mr. Lipinski and Mr. Davis and I 
were at the White House 2 weeks ago, and they are talking about 
incentivizing States to step up. Well, my State has been 
stepping up for some time now. So I think it is really 
important that we not punish States who have already taken 
those steps to award ones that have not.
    So just a few questions, and anyone who wants to get 
started. Thank you.
    Mr. Rogoff. Well, I might quickly take the question on 
life-cycle costs, because, as you pointed out, especially in 
the Northeast and areas like Connecticut, you have got systems 
like Metro-North and others that have been deteriorated over 
time with age, and have struggled to recapitalize and rebuild 
what they have got.
    I think it is right for this committee, in crafting a new 
initiative, whether it is highways, transit, or water, to ask 
project sponsors to identify and evaluate the merits of their 
proposals, based on not just their ability to build it, but 
their having the revenue streams to maintain it. It is 
something we started at the Federal Transit Administration when 
I was there. The question was if we are going to invest in 
expanding your footprint, shouldn't we at least know how you 
are doing in maintaining your current footprint?
    We have a mechanism in Sound Transit in our ballot 
measures. The voters adopted a capital plan and they voted to 
increase taxes. The taxes are then rolled back to the level 
necessary to operate and maintain it, so we have a revenue 
stream for maintenance. A great many other systems don't. We 
are now paying the price for that. And this is certainly a 
question, whether it is highways or transit or water, people 
should be asking.
    Mr. Booker. And if I may, just to answer on the fix-it-
first, or--I mean we certainly are proponents of new 
construction, and certainly feel that there is an unbelievable 
need in this country for new rail, new water, new bridges, new 
roads and highways.
    Take a look at the American Society of Civil Engineers' 
most recent report of where we currently stand with our current 
infrastructure of a grade of D-plus. We have over 50,000 
structurally deficient bridges that our citizens are driving 
across every day.
    So, as we try to develop these new revenue streams to build 
new construction, we have to focus on what is currently 
deficient in our country today. Many bridges and tunnels that 
are decades old, 50, 60, 70 years old, that we are putting 
ourselves and our fellow citizens at risk every day by them 
driving over those bridges, by them driving through those 
tunnels, by getting on that Amtrak train and riding on rail 
that is deficient.
    So we have to come up with a way to fix our existing system 
as we also continue to meet the challenges of today's society 
of the growing needs of what we have.
    Mr. McKenna. And if I might, with regard to looking at the 
entire capital plan, we have to look at this whole bill like a 
company would look at an investment portfolio. There is not a 
particular solution that is going to meet the needs of every 
region of the country uniformly.
    From a standpoint of AASHTO and from a standpoint of a 
State DOT, opening up the flexibility of the surface 
transportation authorization so States can meet their local 
needs is important. We have a planning framework utilizing 
metropolitan planning organizations and regional planning 
commissions that prioritize the needs of those communities. 
They know best what their needs are, whether it is new 
construction, expansion for capacity, or fixing the existing 
system. And the flexibility to utilize Federal funds in concert 
with those local needs is critical.
    Mr. Roberts. I would just add one more comment, if I could. 
The maintenance issue has gotten so big in this country that, 
when you look alone in the State of California, $140 billion of 
backlogged maintenance to get the system--both the interstate 
system and the actual local systems--up to grade, that is 
almost--has to be priority. We cannot be isolating funds just 
for expansion when we haven't taken care of what we have 
already.
    And I would suggest that a lot of the States today are 
focusing on that because they understand that that backlog has 
gotten so immense that, if they don't take care of it--the cost 
basis goes up exponentially if they don't take care of it to 
begin with.
    So I would commend the legislature in California for 
putting together a $50 billion program to mostly focus on 
getting that entire infrastructure transportation system up to 
speed so that they can move forward from this point on.
    So the backlog and the long term versus the short term, we 
have got to take care of the short term. Otherwise, we won't 
have a long term.
    Mr. Graves of Missouri. Mr. Davis.
    Mr. Davis. Mr. Chairman, can I ask for a point of personal 
privilege real quick before I get started? I would like the 
Transportation and Infrastructure Committee to welcome back my 
good friend who just snuck in the back room. It looks like he 
is back at work right now. But Matt Mika, stand up, Matt. He is 
recovering well from the tragedy he experienced 2 months ago.
    [Applause.]
    Mr. Davis. Welcome back, my friend.
    Hey, a quick question for everybody on the panel. Raise 
your hand if you think that we can stabilize and solidify the 
Highway Trust Fund by just raising the gas tax.
    Oh, you guys have listened well to the people behind you, 
because they usually get asked the same question by us. And 
that is what is great about this hearing, because we are 
actually finally talking about diversification. You know, it is 
Peter DeFazio's rage over the fact that we haven't addressed 
many issues that we listened to a few minutes ago, a long few 
minutes ago now. And Shuster talking about, I think as part of 
that diversification, asset recycling, P3s.
    The discussion here is very bipartisan. The discussion that 
Ms. Esty, Mr. Lipinski, and a few of us others had at the White 
House the other morning was centered on infrastructure and how 
do we be able to--how do we solidify and how do we stabilize 
our infrastructure dollars? Everybody has got a lot of ideas. 
Why can't we use them all?
    Now, diversification is something I have been talking about 
since I got here 4\1/2\ years ago. How do we diversify? What do 
we do to make sure that we are ready for the next generation of 
vehicles? I think we all agree--because none of you raised your 
hand--that the gas tax isn't the only answer. That how, on one 
hand, can we have our Highway Trust Fund funded by one source 
that the same Federal Government, all of us that are 
participants in--how do we tell you to burn less of it?
    I think what should scare everybody sitting at that table 
and everybody here is that we have got countries like France 
that, say, in the next 20 years, they don't want a single 
gasoline-powered vehicle on their roadway. Let's say President 
Macron is half right. What does that mean for the percentage of 
electric vehicles that are on our roadways? And what are we 
going to be able to do to actually have a--imagine when 
electric technology gets into the fleet level. What will that 
do, besides decimate our Highway Trust Fund?
    So our job is to plan. And we can sit and we can talk about 
putting these ideas together. We can talk about 
diversification. But in the end we actually got to come up with 
a plan that is going to get votes, and all sides are going to 
have to sit down, instead of just discuss solutions like we are 
doing today. What is going to get us to an actual bill that is 
going to pass?
    And that is where we need your help, because we all agree 
something has to be done. But the funny thing about Washington 
is those details are the things that kind of stick us up.
    Now, you all agree that we need diversification. Who wants 
to be the first one to tell me what plan is going to work best? 
Anybody?
    Mr. McKenna? Thank you for talking about rural Illinois, 
too. Great place.
    Mr. McKenna. Absolutely. When we talk about 
diversification, we have to recognize that as fuel efficiency 
increases, the revenue will decrease in the gas tax.
    Mr. Davis. Because the Federal Government is telling the 
manufacturers to create engines that burn less.
    Mr. McKenna. I would like to point out something that is 
going on in the State of Georgia right now. In 2015 one of the 
AASHTO members actually put an inflator on to their gas tax. 
They raised their gas tax as a baseline. Then they put an 
inflator on that, in part, using the fuel economy of the entire 
Georgia vehicle fleet. So that just kicked in this past year. 
It created an adjustment so they didn't lose any fuel tax 
revenue based on the rising fleet fuel economy.
    So we are going to have to look for things that create some 
way to adjust through to the new future, but not to forget the 
baseline of fuel tax funding.
    Mr. Davis. OK. Mr. Rogoff, I didn't see your hand because 
Westerman's head was in the way.
    Mr. Rogoff. It is quite all right. I wanted to flag, Mr. 
Davis, that actually Washington State is one of the few States 
that have stepped up and taken the invitation from Federal 
highways to study road uses charges.
    And our Washington State Transportation Commission is 
currently launching a project involving some 2,000 drivers 
across the State, also partnering with Oregon and Idaho in 
this, to look at road uses charges and how they might work. And 
some people actually have an app on their phone to measure 
their miles.
    Mr. Davis. VMT?
    Mr. Rogoff. Yes. Well, it is not necessarily by mileage. 
They are defining usage in a variety of different ways. They 
are actually looking at three different constructs, so we can 
report back to this committee a variety of alternatives.
    They are also looking specifically at how that might work 
with electric vehicles, given the--as you pointed out--the 
greatly diminished fuel consumption of those vehicles, and what 
the right charge for those vehicles might be.
    Mr. Davis. Well, and I know my time is up, and I have got a 
question I am going to send to you that I would like to get 
answered on on one of the programs, the stick apportionment.
    But anybody on the panel drive a fully-electric vehicle?
    [No response.]
    Mr. Davis. All right, no freeloaders. I yield back.
    [Laughter.]
    Mr. Graves of Missouri. Mr. Lowenthal?
    Dr. Lowenthal. Thank you, Mr. Chair.
    First, I want to note the relative consensus in the 
testimony for today. Several of our panelists have 
highlighted--along with Congressman DeFazio--the need to 
stabilize the Highway Trust Fund, but also to seek additional 
revenue sources to fund needed infrastructure investment. I was 
glad to hear my colleague from Illinois call for 
diversification.
    I have proposed a dedicated funding stream for freight 
transportation so that projects can address bottlenecks and 
deficiencies in our goods movement network, and that they can 
be financed by users of the freight infrastructure. So it is a 
user fee. My plan has bipartisan support, and would raise 
approximately $8 billion a year for these investments.
    There may be other solutions. I am glad to hear us talk 
about diversification. But there is a consensus that the status 
quo is simply inadequate to meet the challenges as we go 
forward in our infrastructure in the future.
    So, Mr. McKenna, I have a question for you first. 
Missouri's State freight plan notes that truck volume is 
projected to increase by over 50 percent between 2011 and 2030. 
Across the country cargo volumes are up to record highs, and 
addressing this strain on our freight network is a key 
challenge in the years forward.
    I represent the port area in Long Beach, and adjacent to 
L.A. We have had the highest amount of growth in L.A. in years. 
Long Beach recently had the highest 1-month total.
    The question I have to you is do you feel like States like 
yours are--key freight corridors will have the resources they 
need to meet the increased volume without a dedicated freight 
infrastructure funding from the Federal Government?
    Mr. McKenna. Thank you for the question. I do not believe 
we have the resources required to meet that need. I don't 
believe we have the resources required at present to meet the 
current need. So we welcome the focus on freight. It is a 
critical aspect of our economy in the State. And we are focused 
on that element. We will be bringing an INFRA grant application 
forward as part of the discretionary program in the coming 
couple weeks, and we are focused on freight.
    Dr. Lowenthal. Thank you. Next question is for the entire 
panel. The FAST Act in 2015 created a new program to direct 
Federal investment to critical freight infrastructure needs. 
However, the administration recently announced changes to that 
that would reduce this program's emphasis on the most worthy 
projects, and instead advantage projects with a low Federal 
cost-share.
    How does this new emphasis affect our ability to invest in 
critically needed freight infrastructure improvements, now that 
we are just going to go to those that have the lowest Federal 
cost? I would like to--anybody to say. How are we going to deal 
with this issue?
    Mr. McCarty?
    Mr. McCarty. Yes, thank you. You know, as you start 
prioritizing things, what we have done in Missouri--and I am 
sure it is done in other places--is we have had--as the 
director mentioned, we had these MPOs [metropolitan planning 
organizations] and these regional organizations that tried to 
prioritize what their needs are. We don't have the luxury of 
trying to even analyze how much money we are getting back, or 
what the match is. We are looking at where the needs really 
are.
    And really, the needs are really all over the place. From a 
manufacturer's standpoint, we want to make sure the entire 
system is connected. And I think that is important. So you have 
to look at connectivity, as well.
    Dr. Lowenthal. But the question--and I agree with you 
completely about connectivity, and I believe a multimodal 
approach that really deals with connectivity is critically 
needed. So I concur with you. But I want to ask you about the 
administration's approach to now prioritize freight 
infrastructure by looking at those that--advantage programs 
that have a low Federal cost share versus what was done in the 
FAST Act to look at the most worthy projects. That is a quite a 
bit of difference.
    Anybody have any thoughts about what the administration has 
recently done?
    [No response.]
    Dr. Lowenthal. So it doesn't make any difference to you 
that we are going to just target those projects that have the 
smallest amount of Federal cost sharing?
    Mr. McKenna?
    Mr. McKenna. What we are looking at is that they overlap. 
Those that are most significant to the State and most 
significant to the region will also draw additional support 
from local share--we have a cost-share program in our State. 
And that is playing out.
    So we are acting on a discretionary basis to look for those 
projects that align both, that we can bring local resources to 
bear where we can, and try to up our share.
    Dr. Lowenthal. Obviously, since the Federal Government is 
reducing its responsibility and has been, you have to look 
for--at other local sources.
    But do you agree that we should be looking at just--you 
said that you have kind of--trying to do a balance between 
those that are both locally funded, larger cost share, and also 
those that are the most worthy projects. But I don't think that 
is where the administration has gone. They have not really 
talked about the most worthy projects.
    OK, I yield back. Thank you.
    Mr. Graves of Missouri. Mr. LaMalfa?
    Mr. LaMalfa. Thank you. Being another California Member, we 
have a lot of issues over--we are trying to overcome there. The 
recent gas tax and vehicle registration tax have really--has 
been really controversial. Some are seeing it as a windfall of 
dollars for these projects.
    But when it is written in such a way to not add a new lane, 
no new capacity, and a lot of that money is being diverted for 
other things, as well as the continued effort to invest in the 
high-speed rail system in California, which tripled in price 
from its original form and is still bound up by delays and all 
that, I think the people of California--when you talk about a 
gas tax increase of any sort, whether it is a statewide one or 
a Federal one, the taxpayers will get fed up because they don't 
believe or trust the dollars will actually get to the highways. 
And that is what I am very concerned about with California. The 
small percentage of what is being foisted upon them will 
actually end up getting to the roads, with none of it being new 
capacity.
    So, that said, the--part of the area that isn't talked 
about enough is how do we make dollars that we already have in 
the stream go farther. We--and my--one of my other committees, 
the Natural Resources Committee, we worked a bill through 
called H.R. 1654. It is the Water Supply Permitting 
Coordination Act, which created a one-stop shop for permitting 
process by establishing a lead agency, the Bureau of 
Reclamation, as the lead for reviews, permits, licenses, and 
other decisions which have to do with surface water storage 
projects.
    So what I am looking for from this panel here--I would 
imagine you would find that helpful for doing other types of 
infrastructure, building, and repair--so maybe let's start with 
Mr. Roberts on that.
    You mentioned it, the overlap on that was something that 
has brought frustration. What would you think? What would be 
some highlights, which, if we were able to get a lead agency on 
road construction, repair, et cetera, how helpful would that be 
on timing, as well as making dollars go farther?
    Mr. Roberts. Well, let me first address some of the 
concerns over SB-1, which would tie into some of the 
efficiencies that you question relative to the brandnew bill 
that passed in California.
    Inside that $50 billion bill there are instruments in there 
for congestion, and there are instruments in there for 
reduced--or increased efficiencies. Interestingly enough, I 
agree that an oversight group that can bring in different areas 
of the Government to create more efficiency is appropriate.
    In the State of California they just put an oversight 
group, an inspector group, over the top of the DOT to create 
more efficiencies and actually put into that last bill a 
reduction in the amount of money spent at the DOT to create 
efficiencies, going forward, to be able to enact the additional 
revenue----
    Mr. LaMalfa. Well, you still have to do a multistop 
alphabet soup of other agencies with permitting, with Fish and 
Wildlife, Fish and Game, EPA, whoever else might----
    Mr. Roberts. I agree.
    Mr. LaMalfa [continuing]. Have a piece of that.
    Mr. Roberts. I agree. So what you are suggesting is the 
next phase. There were some efficiencies put into that bill, 
and then the next phase--I would agree, having an oversight--
and I think the same thing would be happening as we look into 
the environmental regulations that we see across the country. 
Having some significant common oversight, whether it be for--as 
I mentioned in my testimony, whether it is for the Corps of 
Engineers, with the Clean Water Act, or the EIS studies through 
the--through NEPA [National Environmental Policy Act], that 
same kind of----
    Mr. LaMalfa. NEPA definitely, or California's own CEQA 
[California Environmental Quality Act], yes, definitely, 
because there are unnecessary things that we are having to 
research.
    Go ahead, please.
    Mr. Roberts. But I agree. I think the fact that if you have 
some common oversight you could create a lack of redundancies 
and some simplicity, which, obviously, is going to be more 
beneficial and----
    Mr. LaMalfa. Well, what other things could we be doing in--
you know, federally, to further streamline that would 
complement what we have been talking about?
    Mr. Roberts. Well, the number one, I thought, would be the 
environmental side. It is, by far, the quickest, most 
economical way to do it, is to tie in NEPA and the Corps of 
Engineers to get the 404 permitting process sped up and get the 
EIS system sped up.
    Mr. LaMalfa. All right. Mr. Rogoff, your--did I say it 
correctly?
    Mr. Rogoff. Yes.
    Mr. LaMalfa. OK, thank you. The one-stop-shop idea that you 
were talking about, staffing up more so some of these agencies, 
perhaps--you know, I mean, we always have to find funding or 
have faith that staffing up will actually meet--the rubber meet 
the road in getting the work done. Do you think, with maybe a 
combined staffing up as well as the efficiency we are talking 
about, would we need nearly as much staff? Or would one-stop-
shopping kind of accomplish both?
    Mr. Rogoff. I don't know that it will accomplish both. I 
would certainly agree that having a lead agency, a one-stop 
shop, would have great benefits.
    The concern is that the imperatives of the other agencies 
not be cut off by some artificial deadline or be given short 
shrift. I am talking about some smaller agencies like NOAA 
Fisheries, the U.S. Forest Service and National Park Service, 
EPA, the Army Corps, that have different parts of the law that 
they must apply. Sometimes there has been a culture that the 
only way that they could get their concerns attended to is by 
throwing up a red flag or stopping a project. That culture 
needs to change.
    But I think if you are going to put people at ease that 
this could be done smartly and more quickly, we do need to make 
sure that they are sufficiently resourced to do the job. So I 
think your concept of combining streamlining with a staffing 
plan that gets funded by the appropriations subcommittees would 
be on point.
    Mr. LaMalfa. Well, it seemed like a lot more simultaneous 
coordination with one of the smaller ones, as you mentioned. 
Telling the other ones, ``Here is what we need,'' instead of a 
back-to-back chain, making it 5 years with each one getting 
their turn at----
    Mr. Rogoff. Well, some positive steps have already been 
taken.
    For example, we at Sound Transit and other sponsors now, as 
a result of the FAST Act and some earlier authorities, are 
allowed to pay money to the Federal agencies to help them staff 
up. The staff people we pay for cannot work on our documents, 
but they can work on other documents, freeing someone else up 
to work on our documents.
    Mr. LaMalfa. OK. I am sorry, my time has expired.
    Mr. Rogoff. I am sorry.
    Mr. LaMalfa. OK. No, you are good. Thank you.
    Thank you, Mr. Chairman.
    Mr. Graves of Missouri. Mrs. Lawrence.
    Mrs. Lawrence. I am impressed by the panel that has been 
assembled. I am impressed by this body displaying 
bipartisanship. It seems like all hands are on deck, but still 
we are in the same place of no action.
    Where is the sense of urgency? Where is the sense that--how 
many times do we have to listen to experts? How many times do 
we have to listen to these eloquent speeches about how 
bipartisan we are? How many times do I have to hear ``Make 
America First,'' and knowing that if we check the box on 
investment in our infrastructure, we know that we will build--
we will make sure that we have jobs in America, creating a 
skilled workforce.
    This is global competition. I know there is an 
international bridge that we are trying to build in Michigan, 
and they are talking about bringing in workforce from outside 
the country because we don't have enough trained. How long are 
we, as this elected body who was sent here to do something, 
will continue to sit here ad nausea and talk about it, and then 
watch our administration defund and not give us the proper 
amount of money?
    Clearly, we have experts, and we are experienced enough 
here in Congress to start moving the ball down the road.
    We know that we need to raise the gas tax. Check that box. 
We know we need to have PPP. We know that that is a part of the 
success of moving and transportation plans. We know that we 
need to work together. We got that. We have heard that 
allocation of funds--and we keep playing with numbers as if we 
just pulled numbers out of the air to say, OK, today it is $1 
trillion, tomorrow it's $600 million.
    Where are we going to have that frustration that will move 
us forward and say now it is time to do it?
    I just have one quick question that--it is not really a 
question, but I need it for the record.
    Mr. Booker, you have, across this country, been one of the 
faces of building this workforce, of creating jobs. Can you 
please state for the record if we, as this country and this 
elected body and administration, keep our word about investing 
in our infrastructure, how many jobs could we create in this 
country?
    Mr. Booker. Tens of thousands, hundreds of thousands. And 
when you do it with long-term stability of infrastructure 
funding, you are building the middle class, you are building 
skills for people that are going to last them a lifetime.
    Our training system is based on joint labor management 
participation, where we voluntarily, collectively, with our 
contractor partners, invest over $1 billion a year into our 
training system that goes on to hands-on training to our 
members. And how they get into the middle class and how they 
stay in the middle class is that they have a full-time job. 
They do their training at night, they do their training on the 
weekend. It is an earn-while-you-learn system.
    And I am here representing over 2 million American workers 
in the construction industry today, and with long-term 
commitments, long-term shoring up of the highway transit fund, 
of other mechanisms, is going to allow us to grow that to--you 
know, to maintain our baseline and then allow us to grow it--
that we are teaching skills for people that is going to last 
them a lifetime.
    Mrs. Lawrence. The fact of the matter is the average age of 
a skilled trade worker in America is 53 years old. We are 
facing a crisis in America where we are going to see a whole 
workforce retiring, and we have not invested--while we are 
having this frustrating conversation about how we invest in our 
infrastructure, we are sitting here watching a workforce 
diminish in front of us. If we get the funding we also are 
going to have to stay focused on the fact that unemployment in 
America--minorities, veterans, women--it is this huge middle-
class opportunity in training and the skilled trades and the 
building trades.
    And so, here it is. If we really are about making American 
great--not again, but continually on our pathway of being a 
great country--we have to build that workforce. And we are 
going to have to get serious about this debate. I am--I do not 
want another panel of experts talking to me. I want another 
panel of experts engaging, as we start putting those shovels in 
the ground, as we start employing these young people to replace 
this aging workforce, and to really invest.
    When we travel abroad it is embarrassing, the way that 
other countries that we consider not as sophisticated, not as 
advanced as us, are investing in their infrastructures, their 
rail, their roads. And here we are in America, sitting around, 
still kicking the can. It is time to go to work.
    Thank you, I yield back.
    Mr. Graves of Missouri. Mr. Westerman.
    Mr. Westerman. Thank you, Mr. Chairman, and thank you to 
the witnesses for being here today.
    We know that all roads lead to somewhere. And there is a 
lot of talk about urban and rural, but really, the roads 
connect our urban societies and our rural societies together. 
And our urban areas--in fact, a lot of them here on the east 
coast--are highly dependent on rural roadways to get goods and 
services to the population centers, and also to move 
manufactured products out of cities and across the country. We 
all understand the importance of that.
    Mr. McKenna, your State of Missouri is to the north of 
Arkansas. You have got Interstate 49 that runs along the 
western side of Missouri, up to Kansas City. Interstate 49 is a 
connector between New Orleans and Kansas City. The remaining 
undone part of Interstate 49 happens to be in my district.
    Can you talk a little bit about the importance of 
completing these projects, and how the--even though you have 
got this beautiful highway from the--really, from Fort Smith, 
Arkansas, all the way up to Kansas City, and from Ashdown, 
Arkansas, down to New Orleans, what having that two-lane, curvy 
road undone means to the rest of the transportation on 
Interstate 49?
    Mr. McKenna. Thank you, Representative. Great question. As 
you mentioned, we have about 5 miles of interstate to complete, 
kind of a combined project between Missouri and Arkansas. And 
it shows we are not complete, even with the build-out of the 
interstate system in its original capacity.
    But the benefits to the region itself, a substantially 
growing region in that part of the country. And the movement of 
freight and the movement of people and the economic well-being 
of that region is critically tied to that particular project 
completion.
    You know, we are some $35 million to $40 million away from 
that completion point of the I-49 project. When we allocate 
limited resources, both States have--for 30 years, one State 
has had the funding and been ready, and another State hasn't. 
And we have traded places in funding a couple times. It is 
frustrating for us, I know it is frustrating for you in your 
region. But these are the types of investments that can go a 
long way to really connect the people of the region, as well as 
beyond the region--as you said, going all the way to New 
Orleans.
    Mr. Westerman. And really connecting to the rest of the 
world through the ports there in New Orleans.
    Do you believe the Federal Government gives an honest look 
at the entire system when they are designating funds for these 
new projects? Or do you think there could be improvements 
there?
    Mr. McKenna. Well, the main issue is the amount of money 
coming in to the top. You know, what we have in the region, we 
look at it and have discussions frequently that we have 
equitably distributed dissatisfaction throughout the whole 
system, that we are fair in our allocation, it is just not 
enough being allocated.
    We try to make the best decisions we can, but we are 
focused on critical maintenance and taking care of existing 
system and preservation beyond expansion at this point right 
now, and we need both.
    Mr. Westerman. OK. And shifting gears a little bit, we are 
talking about different kinds of funding streams. I know, from 
serving in my State legislature, that in Arkansas, at least, 
State and local taxes are collected on construction materials 
on projects that are funded with Federal dollars.
    Now, Mr. McKenna, I think Missouri has an exemption for 
that, where they exempt construction materials from State and 
local taxes. But since the communities where these 
infrastructure projects are built benefit from the 
infrastructure projects themselves, do you think it would be 
fair to ask State and local entities not to collect taxes on 
construction materials for projects that are funded with 
Federal dollars?
    And I would like to ask Mr. Roberts that question, as well.
    Mr. McKenna. We have a local cost share so that communities 
can actually leverage local taxes. And what we have seen are 
communities have actually invested those in the Federal system, 
in the State system, beyond their local municipalities. So we 
see a counteraction that occurs, so it balances it out.
    Mr. Westerman. But ultimately, those State and local taxes 
are being paid with Federal tax dollars if it is on a federally 
funded project.
    Mr. Roberts?
    Mr. Roberts. Yes, sir. I am not familiar with a location 
where the materials that we put into our projects are not taxed 
at the local level. So that would be surprising to me. So----
    Mr. Westerman. So one proposal that I may put out there is 
to exempt construction materials from State and Federal taxes 
when Federal tax dollars are funding those projects, so you 
have more money going for concrete and asphalt and bridges, 
rather than going into State and local tax coffers.
    I yield back.
    Mr. Graves of Missouri. Mrs. Napolitano.
    Mrs. Napolitano. Thank you, Mr. Chairman, and thank you for 
holding a hearing on the critical need to increase investment 
in transportation infrastructure. And I am proud to join you 
and Ranking Member Norton and 253 of our bipartisan colleagues 
in sending a letter to the Ways and Means Committee, urging 
them to fix the Highway Trust Fund revenue problem in order to 
provide sustained and sufficient funding for our 
transportation.
    Thank you to all the witnesses. Your testimony highlights 
the need for robust funding, both maintaining our existing 
infrastructure and new projects to address congestion, safety, 
and efficiency.
    I particularly want to thank Mr. Roberts, from California. 
I often see the crews along the highways that I go almost on a 
daily basis when I am home, and I appreciate the dangerous work 
you do, and colleagues who are in transportation and the 
building trades.
    Your testimony highlights the American Civil Society of 
Engineers report card that our Nation's roads have a D and our 
Nation's transit system a D-minus. American Society of Civil 
Engineers note that there is an $836 billion--billion--backlog 
of highway and bridge capital needs, with an additional $123 
billion backlog for bridge repair, a $90 billion backlog on 
transit maintenance.
    I am proud the California Legislature worked to address the 
transportation funding gap by passing SB-1, the $5.2 billion 
per year transportation spending package for 10 years. It 
passed on a bipartisan basis, two-thirds of our legislators 
voted for it. Signed by the Governor in April. But now some of 
our colleagues are challenging in court.
    Surprisingly, they are pursuing a ballot measure to repeal 
this important transportation funding. I ask unanimous consent, 
Mr. Chair, to insert into the record letters from California--
Fix Our Roads Coalition and the Transportation Construction 
Coalition--opposing repeal of SB-1.
    Mr. Graves of Missouri. Without objection, so ordered.

    [The two letters follow:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mrs. Napolitano. Mr. Roberts, can you discuss the 
infrastructure challenges facing California? And do you believe 
SB-1 is needed to address those challenges? How many jobs does 
SB-1 create in California, and what would be the impact in 
repealing SB-1 on our State's economy?
    Mr. Roberts. Yes, ma'am, I would be happy to, because I 
think that SB-1 was probably one of the biggest legislative 
actions that I have seen in many, many years in the State of 
California.
    Mrs. Napolitano. Finally.
    Mr. Roberts. The backlog of work in California, as I 
mentioned before, is in excess of $100 billion, itself, in the 
State of California. It has been continually underfunded. And 
actually, in the last several years, it has been reduced, which 
is a tragedy. And I think that what is happening in the State 
of California is a microcosm of what is happening across the 
country.
    And so, I want to go on record and make clear that the 
legislature stood up and did what we are hoping our Federal 
Government will do, as well. And they used, as you suggest, a 
bipartisan approach to it, brought in discussions for several 
years. The Governor, the leader of the State of California, put 
together the program at the end.
    They used a host of fees, and I think this is the important 
part. They did not focus just on gas tax. It has gas taxes, it 
has diesel tax, it has registration fees for electrical 
vehicles, for hybrid vehicles. So it used a host of 
opportunities, which we have been talking about all day here 
this morning, relative to making sure that we diversify the 
opportunity to create the funding mechanism.
    I think it would have been just absolutely devastating, or 
will be, if any kind of a repeal effort is successful, because 
today in California we are in gridlock.
    And there was a question asked earlier about the--this does 
not address congestion. Well, it does address congestion. It 
doesn't address large expansion. But part of the congestion 
problem that we have across the country is the fact that we 
haven't properly maintained the systems that we have today.
    Mrs. Napolitano. For years.
    Mr. Roberts. Which is a significant issue in itself. And 
this is why I said previously that if you don't maintain what 
you have to begin with, you should not be putting more in 
place, because you are not going to maintain that properly, 
either.
    I am excited also with Mrs. Lawrence's comment that the--
something of this significance long term--10 years, $52 
billion--will create an opportunity for people to move into the 
business of being in that industry and create careers so they 
can put money and food on the table for their families, and not 
just a short-term stimulus, but a long-term, $52 billion 
program in the State of California that will change the 
construction industry for decades to come.
    So I want to congratulate the legislature and the Governor 
for what I think is one of the biggest and strongest acts they 
have done in years.
    Mrs. Napolitano. Thank you very much. That is very true. 
And we are looking forward to more funding and to expansion of 
our freeways, because some of them are, well, more than 50 
years old, and they are falling apart and not able to handle 
the type of transportation that is currently needed to get to 
work, get to deliver, and do all the other things.
    I find it sad that it took me--I was working for Ford Motor 
at the time--it took me 17 minutes from my house to my job back 
20 years ago. Now it takes me an hour and a half.
    So it is important that we address the congestion. But also 
keep in mind that we need to address the backlog, the operation 
and maintenance, so that we have enough funding in reserve to 
be able to take care of that also.
    Thank you very much. I yield back, Mr. Chair.
    Mr. Graves of Missouri. Mr. Woodall.
    Mr. Woodall. Thank you, Mr. Chairman. I want to talk about 
what we can do to restore some taxpayer confidence in the 
system.
    Mr. Booker, I think about all your members that we see out 
there working hard every day of the week. I mean we have all 
had constituents call with those stories, ``Dadgumit, Rob, I 
see 3 guys working, I see 40 guys standing around. I just don't 
understand it.''
    I have got a little 2\1/2\-mile stretch of road in my 
district. Preliminary engineering started on that road-widening 
project back in 2005. Folks have been seeing orange cones out 
there for a decade. They want to know what in the world is 
going on. Why can't we get something done?
    What Mr. McKenna knows is that Russell McMurry, who leads 
our State DOT, presided over a project when the I-85 bridge 
burned down and collapsed in Georgia, three spans of bridge--
not a square bridge, but a parabola of a bridge there, and we 
replaced it in 6 weeks. I didn't have one Tea Party, one 
conservative, one taxpayer advocate, I didn't have one 
constituent call and tell me they were angry about the $3 
million performance bonus that we gave to C.W. Matthews for 
getting that job done 6 weeks--not just a 6-week project, but 6 
weeks early on a 12-week project, and delivered what taxpayers 
believe was a value for their dollar.
    So you all represent a different facet of the industry. I 
tell that story all the time because it tells me what we can do 
together, a Democratic mayor, bipartisan regional commission, 
Republican Governor, all coming together to make those things 
happen.
    What is the story in your space that you would have me 
retell to tell folks, you know what? If you trust us with 
another $10 billion or $20 billion in trust fund, we are not 
just going to flush it down the toilet, we are going to get you 
real value for real money? Who has got a--who has got something 
to lift me up today?
    Mr. McKenna.
    Mr. McKenna. Yes, I will give you two examples, 
Representative.
    Number one, in Missouri we have the same circumstance. We 
had major flooding in the spring. We had 384 roads closed. Our 
maintenance crews and our construction partners had 300 of 
those opened in 5 days. We are down to just three, and those 
will be complete by the end of this month. All 384 roads will 
be opened within 6 months of being closed.
    We also have a record of achievement: 4,661 construction 
projects have been completed by Missouri DOT and our 
construction partners in the last 10 years, 94 percent on time 
or early, and 7 percent under budget. That is $1 billion in 
savings, and that has gone right back into the construction 
program----
    Mr. Woodall. Seven percent under budget?
    Mr. McKenna. Seven percent.
    Mr. Woodall. Mr. Booker.
    Mr. Booker. I would look to a project in Georgia at Plant 
Vogtle, where we are building two new nuclear units, units 3 
and 4, in Waynesboro, Georgia. Not an easy place to get to.
    We got 4,000 construction workers that go to work there 
every single day. I spent more time than I probably should have 
down on that job site. And when you go around and you meet with 
them, whether it is on that project or any other project, our 
members, the construction workers, they want to work. They 
don't want to sit around. You know, the worst thing you could 
do on a 10-hour shift is only be busy for 4 hours.
    So our partnership with our contractor partners, how do 
you--your work, how do you manage that day, how do you do that? 
And if you go down to Waynesboro, you are going to see 4,000 
people come out of the project every day. They can look behind 
them, see that they are building the future power for this 
country, and they are proud of what they are doing every day.
    Mr. Woodall. We thought they were going to be trendsetters. 
It remains to be seen, whether that comes to fruition.
    Mr. Booker. I still think they will.
    Mr. Woodall. Mr. Rogoff?
    Mr. Rogoff. Well, I would point to projects that are really 
transformative, and I would give you this example.
    We are surrounded by both water and mountains in the Puget 
Sound region. And, as a result, we can take a lot off of a 
person's commute by having them avoid either the mountains or 
especially the water.
    So we just opened two additional stops about a year ago 
this past March that serve a neighborhood called Capitol Hill 
and Huskies Stadium, where the Washington Huskies play at the 
southern end of the university campus. We are continuing to go 
north from there.
    The ability to avoid the waterways and the roadways that 
have to hug those waterways meant that just that two-stop 
segment meant that for many people the trip to the heart of 
downtown Seattle went from more than 20 minutes on a good day, 
and could be 40 minutes on a bad day, to 8 minutes. It has 
completely changed commuting patterns. Our light rail ridership 
spiked beyond our expectations, from 70, 80 percent with just 
two stops. It was a lot of money, it took a lot of time. But, 
boy, it has transformed that region.
    Mr. Woodall. Yes, I think about the elected officials who 
put the Hartsfield-Jackson Atlanta International Airport in, 
over a lot of objections, 45 years ago now. It transformed the 
city of Atlanta in ways that no one could have ever imagined.
    And I see the Trucking Association sitting on the back row. 
Their members are willing to pay more, because they see the 
difference it makes in their day to maintain the roadways.
    I hope, as we go on, you all will partner with me with 
those stories. It makes all the difference in the world when 
you feel like you are on a winning team instead of on a losing 
team. And I know folks who are proud to show up to work every 
day. I want the taxpayers to be every bit as proud of that work 
that is going on. Your members deserve that, your industry 
deserves that, and I think we can do that together.
    I thank you all for being here today.
    I yield back, Mr. Chairman.
    Mr. Graves of Missouri. Mr. Johnson.
    Mr. Johnson of Georgia. Thank you, Mr. Chairman, and thank 
you, gentlemen, for your appearance today and for your 
testimony.
    Many people voted for Donald Trump because he promised to 
make American great again by growing the economy and creating 
high-paying, middle-class jobs by rebuilding America's 
crumbling infrastructure. Isn't that correct, Mr. Booker?
    Mr. Booker. That is correct.
    Mr. Johnson of Georgia. And, Mr. McKenna, do you believe 
that we can make America great again by rebuilding our roads, 
bridges, and tunnels, if we replace real Federal gas tax 
revenues with public-private partnerships?
    Mr. McKenna. I believe it requires we do both.
    Mr. Johnson of Georgia. Do you believe that public-private 
partnerships alone can do it?
    Mr. McKenna. When I look to my left on this panel, public-
private partnerships have existed in transportation for over 
100 years. States, the Federal Government, and our construction 
industry, it is already in place.
    Mr. Johnson of Georgia. Well, recently the Washington Post 
and the Wall Street Journal reported that President Trump 
stated that he no longer believes that public-private 
partnerships will solve our infrastructure funding needs. Do 
you disagree with President Trump?
    Mr. McKenna. I believe it is part of a tool in the toolbox. 
It is a procurement method, it is not necessarily a funding 
method. It is one of the tools that might help particular 
projects in particular regions of the country.
    Mr. Johnson of Georgia. Well, my colleague from Illinois, 
my good friend Representative Davis, asked you all to raise 
your hands if you believe that raising the gas tax alone will 
take care of the problems with the Highway Trust Fund. And it 
was duly noted that no one raised their hand. And none of you 
on the panel raised your hand.
    I want you to raise your hand if you believe that the 
Federal gas tax will remain viable for fixing our crumbling 
infrastructure, given the fact that we have 253 million gas-
powered vehicles on the roads in the country today versus only 
540,000 electric vehicles. Raise your hand if you believe that 
the tax, the Federal gas tax, will remain viable to fix our 
crumbling infrastructure.
    Mr. Rogoff. I am struggling with ``remain viable.''
    Mr. Johnson of Georgia. I see four out of five, with the 
transit guy not raising his hand, and I would love to ask him 
about that in a second--probably for a reason unrelated to the 
answer to the question. But I want you--so the record reflects, 
you all believe that the gas tax is going to be viable.
    Now raise your hand if you believe that the gas tax should 
be increased. And I see three--I see four--I see three, I see 
four. I see a maybe out of one of the fours.
    Mr. McCarty.
    Mr. McCarty. Yes, and the reason I am hesitant is because I 
think it has to be part of an overall solution. It can be part 
of a package----
    Mr. Johnson of Georgia. And that is not my question. My 
question is whether or not you believe that--since 1993, gas 
tax has been at its current rate. Do you think it should be 
increased? That is my only question. And you did raise your 
hand, so do you wish to retract it at this time?
    Mr. McCarty. No. I think it has to be part of the package. 
As I said, we are looking for something that is sustainable, 
long-term. And, you know, fuel tax will be one of those things 
that we have to do.
    Mr. Johnson of Georgia. All right. And so, Mr. Rogoff, 
would you please solve this mystery for us, why you did not 
raise your hand on the question----
    Mr. Rogoff. Well, it is in part policy and it is part 
parochial. As I pointed out earlier, the State of Washington 
has just increased its gas tax, the second increment of it of a 
$.12 gas tax increase. I work for a board of 18--17 elected 
officials. They do not, as I know, have a position on raising 
the gas tax.
    I would say this. Importantly, transit is funded from a mix 
of trust fund dollars and general fund dollars. And in my 
written testimony I talk about how the need for transit 
expansion in America requires that we revisit the mix between 
programs. But I don't believe that all of the problems will be 
handled by a gas tax increase, and I think we probably should 
address the problems on a comprehensive basis, perhaps some 
combination of fuel taxes.
    I have also talked about the fact that Washington State is 
one of the few States that is actually piloting vehicle user 
charges. I think the committee needs to take a hard look at 
what will be sustainable, because the one thing you will hear 
unanimously from this panel is everyone wants sustainability 
and predictability in the program.
    Mr. Johnson of Georgia. And thank you for that response. 
But I will ask whether or not these vehicle user fees are 
sufficient in rural areas.
    Mr. Rogoff. I think the debate, actually, often goes in the 
other direction, which is to say rural users use the roadways 
more, by definition. And how long it will take a rural resident 
to get to church or a shopping center versus an urban resident. 
The concern I have heard is that vehicle user charges can work 
a hardship on rural America. So I do not know that it would 
necessarily work in that case.
    Mr. Johnson of Georgia. Thank you. I yield back.
    Mr. Graves of Missouri. Mr. Larsen.
    Mr. Larsen. Thank you, Mr. Chairman. Being not on the 
subcommittee, but being allowed to participate, I much 
appreciate that. And under the committee rules, if you are not 
on the subcommittee, you are last. So I also appreciate what it 
was like to be a freshman once.
    [Laughter.]
    Mr. Larsen. So I will remember that one day, the value of a 
5-minute rule.
    Mr. Rogoff, as you know, I am one of those voters who voted 
for the variety of taxes that we raised for the Sound Transit 
3, or ST3, as we call it. And one of the issues that came up 
during that debate was about the Federal obligation that we 
weren't going to do all of it, that taxpayers weren't going to 
carry all of this, but were certainly going to carry most of 
it. There was an expectation there would be a Federal 
obligation, but it was not going to be the full burden, or half 
the burden.
    So now we are in this debate with the 2018 budget, moving 
forward, for ST2, completion of ST2. Can you just--how are you 
handling the uncertainty of the 2018 budget, then, that says 
the Federal obligation may not be there to move forward?
    Mr. Rogoff. Well, in a variety of measures we are first 
evaluating for the benefit of the Sound Transit board what our 
financing options would be. We have said definitively that we 
will get to Lynnwood, just as we will get to Federal Way and 
beyond, on to Everett and on to Tacoma, on to Redmond.
    I think the concern is that the Federal partnership leave, 
thus requiring local taxpayers to pay far more and, in so 
doing, delay the project. We have already had to delay the 
delivery date for getting to Lynnwood from 2023 to 2024, and 
that was, in part, because of the uncertainty surrounding 
whether we will get a full funding grant agreement, and the 
timeframe in which we might get it.
    This recent appropriation cycle is a very good example. We 
were not successful in the House appropriations bill in 
securing dollars for Lynnwood. There is some funding in the 
Senate bill that we believe Lynnwood would be eligible for. And 
so we have to really watch the needle carefully, watch each 
step in the process, work with the FTA, work with our 
delegation, work with other transit agencies like ours.
    This is not just about Sound Transit; there are a number of 
other transit agencies around the country that similarly expect 
continued Federal partnership. It was reasonable for them to do 
so. No one expected the administration to completely turn off 
the funding spigot, as no administration has done in the last 
five that I have worked with.
    But we are looking at our financing options, while working 
very hard with Members like yourself and the rest of the 
delegation in trying to move forward with a reasonable Federal 
cost.
    Mr. Larsen. Yes. So, just to put some perspective on that, 
again, the Federal Government turning off the Federal funding 
spigot, but the local taxpayers spigot is still running.
    Mr. Rogoff. Absolutely.
    Mr. Larsen. Their obligation is still going with an 
expectation that there will be some help.
    Mr. Rogoff. It is precisely what we told the voters. And, 
you know, you heard me earlier complain about being called out 
in the President's budget as reasons to terminate the Federal 
participation. They also called out Los Angeles, they also 
called out Denver, the fact that all three of our regions 
passed local tax measures to fund transit. But the reality is 
all three of those had an expected Federal component when we 
brought that to the voters.
    Mr. Larsen. An expected Federal component that you had 
actually already talked to the Federal authorities about.
    Mr. Rogoff. Well, in the case of Lynnwood, we have already 
been admitted into the engineering phase, with a commitment of 
$1.174 billion. I mean this was laid out. And that is why the 
President's budget proposal came as, you know, more than a 
shock.
    Mr. Larsen. Yes. You use TIFIA quite a bit, and that is--in 
the FAST Act I think we expanded the use of TIFIA as a 
nondirect Federal funding mechanism. Can you just talk briefly 
about how you use TIFIA as a tool?
    Mr. Rogoff. Sure----
    Mr. Larsen. A valuable tool?
    Mr. Rogoff. TIFIA is a very valuable tool, especially for 
agencies that have strong credit. And we pride ourselves--we 
believe we may have the strongest credit rating of any transit 
agency in the country.
    We use TIFIA to lower the cost of borrowing to the 
taxpayers. So we have, we believe, what may still be the only 
master credit agreement with the DOT for four separate TIFIA 
loans wrapped into one agreement. That, by itself, over the 
course of those four loans, will save the taxpayers at Puget 
Sound between $200 million to $300 million in borrowing costs.
    It is a great tool----
    Mr. Larsen. What portion of that is mine and my wife's?
    [Laughter.]
    Mr. Larsen. Just kidding, just kidding.
    Mr. Rogoff. I would have to divide it across all regional 
taxpayers, but it benefits everyone.
    Mr. Larsen. Yes, great.
    And then finally, I will just note when the I-35 bridge 
collapsed--and this is for everyone, I think, for the record, 
if you can get back to us--when we had the I-35 collapse in 
Minneapolis, that sort of triggered Congress, when we did the 
next transportation bill, to write into the emergency bridge 
funding provisions in that next bill some emergency permitting 
procedures, which were first then used when the Skagit River 
Bridge collapsed in my district. And they were used in Georgia, 
as well, I think, as part of that collapse.
    Is there, from your perspective--and again, for the record, 
are there provisions in that emergency set of provisions for 
emergency bridge repair that can be maybe used as a lesson for 
some permitting streamlining as we are--you know, as we try to 
craft a bill and look at permit streamlining?
    If you can come back to us for the record on that from the 
five of you, I would appreciate it. Thanks a lot.
    Thank you, Mr. Chairman.

    [The American Association of State Highway and Transportation 
Officials' response to Hon. Larsen's request for information is on page 
65. The response from the Transportation Construction Coalition is on 
pages 90-91.]

    Mr. Graves of Missouri. I have got a question for--it is a 
little parochial--for Mr. McKenna, but for the committee 
overall.
    Missouri has received grants for the surface transportation 
alternative funding program for 2016 and 2017, and I would be 
curious--or if you could tell the committee, too, what the 
progress is, and how that is moving along, and what your 
thoughts are.
    Mr. McKenna. Thank you, Mr. Chairman. Yes, we did note 
that, as part of the FAST Act, there was $95 million available 
for looking at alternatives to the fuel tax. We felt that our 
neighbors to the left and the right were doing a pretty good 
job of investigating vehicle miles traveled, and we wanted to 
look at something else. So we are looking at, in Missouri, the 
notion of a fuel economy-based adjustment to a registration fee 
as another tool in the toolbox, as another means of 
strengthening our own revenue base in Missouri.
    So the first round of the grant--we received a small grant, 
$250,000, to study the demographics of the registration 
database, and that has gone very well. We should be done with 
that in December.
    We did just get the very good news that we have received 
another grant the next round, which is about $2.7 million, and 
we are going to be taking information we have gained from the 
first round, and we are looking at the registration database in 
the State, and looking to implement that type of registration 
fee. It would be a big upgrade for the State.
    Mr. Graves of Missouri. We had a lot of talk about, 
obviously, solvency of the trust fund, moving forward. And I 
know Mr. Shuster and I both believe that we are going to have 
to do something different, because the gas tax is 
extraordinarily regressive and it is going to get more so and 
more so and more so. So we are very interested in alternatives 
that we can look at, moving forward.
    Second round? I know Mr. LaMalfa has a question.
    Go ahead, and then Ms. Norton wants to finish. Go ahead, 
Mr. LaMalfa.
    Mr. LaMalfa. Thank you again, Mr. Chairman. I appreciate 
that.
    I just wanted to clear out what a couple things meant for 
California on SB-1. It was called a bipartisan bill. There are 
120 California legislators during the assembly in the senate. 
One Republican voted for SB-1 in the senate. So if you want to 
call that a bipartisan bill, I don't have a lot to say about 
that. But--and that individual is termed out and got a railway 
project for that individual's district.
    So under what is known as ``hashtag fix our roads,'' 30 
percent of the funding of SB-1 is going to go for other things 
besides roads like rail, transit, bikeways, pedestrian paths, 
parks and recreation, university research, workforce 
development programs.
    So when we go to the well and ask--you don't even ask the 
taxpayers, because they do have a couple ballot measures they 
are looking at in California, maybe they will get asked--tell 
the taxpayers to pay more for their roads, and you have 30 
percent going for other things, and it isn't bipartisan, you 
are really going to run into more problems coming back into DC 
and telling California legislators to try and vote for a new 
deal to foist more upon them.
    You know, again, $.20 in diesel tax on top of what truckers 
are already paying, and yet truckers are not going to see any 
improvement from the new tax for their ability to move goods up 
and down the system.
    Families probably see about a $500 increase, total cost per 
year, if they are a multivehicle family and have any work or 
school to get their kids to. So, you know, there are real costs 
involved as we sit here and talk about increasing vehicle tax 
and fuel tax and--on everybody, whether it is a Federal or 
State project.
    And finally, they had to even change the ballot summary, 
because of the way it was rigged by the attorney general in 
California. He went to court and they had to change the 
misleading ballot summary of what--getting ready to qualify, or 
I think has qualified to go in front of the voters.
    So there is a lot of funny business with what is being 
placed in front of them, and they can't be honest about what it 
does.
    So, that said, when we are talking about the--who is going 
to bear the cost of the burden of paying for additional roads 
into the Highway Trust Fund or what have you, the issue of 
electric cars has come up a couple times on the panel here. In 
California's bill there is an increase for $100, because you 
can't track fuel costs for electric cars. It doesn't even kick 
in until 2020 for the electric vehicles in California--$100. 
Meanwhile, everybody else is going to be paying $175, or 
approximately that, plus the gas tax. So we can't even seem to 
even out the burden on electric vehicles.
    But let me throw this to Mr. McKenna here. You know, as 
talking about getting more into the trust fund, with the 
increasing numbers of electric vehicles and hybrids and such, 
and subsidized by State and Federal money, sometimes several 
thousands of dollars of these due to the incentives to buy 
those vehicles, they contribute a small fraction of what the 
cost is for using the same roads.
    So what do you see, Mr. McKenna, across the board, besides 
California, delayed until 2020, $100? What are you seeing in 
other States to try and have these vehicles that are wearing 
out the highways and roads the same as others, but not paying 
any part of that burden?
    Mr. McKenna. Thank you for the question. That is actually 
what we are trying to address with the grant program that 
Chairman Graves mentioned. We are looking at a fuel economy 
adjustment to the registration fee.
    So if I am receiving 40 miles per gallon on my vehicle, and 
you are receiving 20, and we both drive 10,000 miles, you are 
paying double what I am. Our attempt, through this grant 
program, is to look at the ability to create a registration fee 
that would balance those two. So, in fact, all users would be 
paying the same.
    Mr. LaMalfa. OK. On one hand, that is funny, because we 
have been cajoled and pushed and prodded into driving smaller, 
more fuel-efficient vehicles and all that, and then, now that 
the money is running out of the trust fund, it is going back 
the other way. So how people that watch what we do, either at 
the State level or the Federal level, wonder what the heck they 
are supposed to do, it has got to be pretty confusing.
    So, with that, Mr. Chairman, I will yield back. I 
appreciate the extra time.
    Mr. Graves of Missouri. Thank you.
    Mr. Graves from Louisiana.
    Mr. Graves of Louisiana. The other Mr. Graves. Thank you, 
Mr. Chairman. I appreciate it, and I want to thank you very 
much for having this hearing.
    I want to thank you all for being here today. I apologize I 
had to step out for a good bit of the hearing, but I did hear 
your testimony earlier.
    As we move forward in building an infrastructure package, I 
think something that is really important is for us to look at 
where we are spending infrastructure dollars today, as a 
Federal Government. And I can go through and name various 
programs through, obviously, agencies like Department of 
Transportation, the Corps of Engineers, but many other agencies 
that are spending billions of dollars that I think are perhaps 
a bit off the radar, agencies like Department of Agriculture, 
FEMA, Department of Commerce, Department of the Interior, HUD, 
and many others.
    Do any of you have experience in using multiple funding 
streams in advancing an infrastructure solution that you are 
working on? Does that question make sense? Meaning integrating 
various Federal funding streams to build a transportation 
project in your State.
    Mr. McKenna. Yes, Representative. We actually use multiple 
funding streams for almost every construction project we do, 
large or small. So a combination of Federal, State, and local 
funds. We have a cost-share program that can leverage local 
transportation development district sales taxes.
    Mr. Graves of Louisiana. Let me see if I can clarify my 
question. Certainly you are going to be integrating State and 
local funding streams with Federal, because there is a cost 
share on many of these programs. Have you brought other Federal 
streams to the table?
    Mr. McKenna. We do try to work with resource agencies. I 
can't think of any specific ones right now, but I know we have 
done that, and I could provide some for the record.
    Mr. Graves of Louisiana. I would appreciate it. Could 
anyone else----
    Mr. Rogoff. Sure. We certainly have combined dollars from 
the Federal Transit Administration with things like CMAQ 
dollars, congestion mitigation air quality----
    Mr. Graves of Louisiana. Sure.
    Mr. Rogoff [continuing]. Dollars from the Federal Highway 
Administration.
    I think what you will often see is dollars from other 
agencies pay for some of the augmentation that surrounds our 
projects like CDBG [Community Development Block Grant] through 
HUD, and the kind of redevelopment a community might do around 
a rail station. It is part of an overall build-out of a 
structure, but they might be considered segmented projects.
    Mr. Graves of Louisiana. Yes, thank you. And, Mr. Chairman, 
as we move forward and continue having discussions about 
infrastructure, I just think it is critical that we have a 
clear inventory of various Federal efforts that are underway 
now, under all these different agencies, that are advancing 
different infrastructure objectives and, in many cases, I think 
perhaps objectives that aren't as high priority as others. If 
we are spending money and making up something, if we are 
building recreational opportunities in some States using an 
infrastructure pot, is that really advancing a Federal 
objective?
    A lot of people, when you talk infrastructure package, I 
think are expecting to see this rain of Federal dollars that 
are going to come in to States. I think one of the first things 
we need to do is get an inventory of where we are spending 
dollars now, and a better understanding of how those dollars 
are being spent, if they are truly advancing a Federal priority 
or not, and doing a better job at truly funding projects, or 
funding initiatives within the Federal Government, as opposed 
to taking more of a shotgun approach, where we sprinkle dollars 
out in insufficient amounts all over the United States.
    Let me ask another question. Mr. Rogoff, you obviously have 
a strong transit background. I have ridden on a number of your 
rail vehicles in the Seattle area. How do you do your planning? 
You talked about how you are able to project the number of cars 
coming off roads, and things like that, as a result of 
different investments you are making. How do you integrate your 
planning with your State DOT to make sure that you are making 
complementary investments with your transit dollars as compared 
to other highway dollars?
    Mr. Rogoff. It is a great question, and we are, frankly, 
rather proud of our record and how we come at this.
    So, first, as I said, we have to go to the legislature to 
get authority to go to the voters to ask for a revenue increase 
and a system plan. That was effectively the State highway bill, 
so we knew what the State's plans were before we then went out 
to the voters.
    We have the added benefit that the State transportation 
secretary is a member of my board. We work hand-in-glove with 
them, in part, because a lot of the projects we are running--
new rail extensions are actually happening over interstate 
right-of-way adjacent to either I-5--we are also, literally, 
building light rail over a floating bridge that is Interstate 
90.
    So we are working together. In fact, a number of the State 
DOT staff will now be collocated in our office spaces so we can 
work even better together. So there are always improvements to 
make on the integration, but we only want the taxpayers to pay 
for the benefit once, and we are working very hard to make sure 
that takes place.
    Mr. Graves of Louisiana. Thank you.
    Mr. Chairman, I have a couple other questions I am going to 
submit in writing. Thank you very much. I yield back.
    Mr. Graves of Missouri. Absolutely.
    Seeing no other questions, I want to thank all of our 
witnesses for being here today and for your testimony.
    I would also ask unanimous consent that the record of 
today's hearing remain open until such time as our witnesses 
have provided answers to the questions that have been submitted 
to them.
    And I would also ask unanimous consent that the record 
remain open for 15 days for additional comments and information 
submitted by Members and witnesses to be included in today's 
record.
    And, without objection, that is so ordered.
    And if no other Members have anything to add, the committee 
stands adjourned. Thank you.
    [Whereupon, at 12:35 p.m., the subcommittee was adjourned.]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
        
                               [all]     
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
